<html>
<title> - EQUAL PAY FOR EQUAL WORK? NEW EVIDENCE ON THE PERSISTENCE OF THE GENDER PAY GAP</title>
<body><pre>[Senate Hearing 111-170]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-170
 
                 EQUAL PAY FOR EQUAL WORK? NEW EVIDENCE
                    ON THE PERSISTENCE OF THE GENDER
                                PAY GAP

=======================================================================


                                HEARING

                               before the

                        JOINT ECONOMIC COMMITTEE
                     CONGRESS OF THE UNITED STATES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 28, 2009

                               __________

          Printed for the use of the Joint Economic Committee



                  U.S. GOVERNMENT PRINTING OFFICE
52-911                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                        JOINT ECONOMIC COMMITTEE

    [Created pursuant to Sec. 5(a) of Public Law 304, 79th Congress]

HOUSE OF REPRESENTATIVES             SENATE
Carolyn B. Maloney, New York, Chair  Charles E. Schumer, New York, Vice 
Maurice D. Hinchey, New York             Chairman
Baron P. Hill, Indiana               Edward M. Kennedy, Massachusetts
Loretta Sanchez, California          Jeff Bingaman, New Mexico
Elijah E. Cummings, Maryland         Amy Klobuchar, Minnesota
Vic Snyder, Arkansas                 Robert P. Casey, Jr., Pennsylvania
Kevin Brady, Texas                   Jim Webb, Virginia
Ron Paul, Texas                      Sam Brownback, Kansas, Ranking 
Michael Burgess, M.D., Texas             Minority
John Campbell, California            Jim DeMint, South Carolina
                                     James E. Risch, Idaho
                                     Robert F. Bennett, Utah

                     Nan Gibson, Executive Director
               Jeff Schlagenhauf, Minority Staff Director
          Christopher Frenze, House Republican Staff Director


                            C O N T E N T S

                              ----------                              

                     Opening Statements of Members

Hon. Carolyn B. Maloney, Chair, a U.S. Representative from New 
  York...........................................................     1
Hon. Kevin Brady, a U.S. Representative from Texas...............     3
Hon. Elijah E. Cummings, a U.S. Representative from Maryland.....     4

                               Witnesses

Statement of Andrew Sherrill, Director, Education, Workforce, and 
  Income, Security Issues, United States Government 
  Accountability Office..........................................     6
Statement of Dr. Randy Albelda, Professor of Economics, 
  University of Massachusetts, Boston, MA........................     7
Statement of Lisa Maatz, Director of Public Policy and Government 
  Relations, American Association of University Women............     9
Statement of Diana Furchtgott-Roth, Director, Center for 
  Employment Policy, Senior Fellow, Hudson Institute.............    11

                       Submissions for the Record

Prepared statement of Representative Carolyn B. Maloney..........    32
Prepared statement of Representative Kevin Brady.................    33
Prepared statement of Representative Elijah E. Cummings..........    33
Prepared statement of Andrew Sherrill............................    35
Prepared statement of Randy Albelda..............................    46
Prepared statement of Lisa Maatz.................................    54
Prepared statement of Diana Furchtgott-Roth......................    59


                     EQUAL PAY FOR EQUAL WORK? NEW



                   EVIDENCE ON THE PERSISTENCE OF THE



                             GENDER PAY GAP

                              ----------                              


                        TUESDAY, APRIL 28, 2009

             Congress of the United States,
                          Joint Economic Committee,
                                                    Washington, DC.
    The committee met at 10:05 a.m., in Room 2172, Rayburn 
House Office Building, Hon. Carolyn B. Maloney (Chair), 
presiding.
    Representatives present: Maloney, Hinchey, Cummings, and 
Brady.
    Staff present: Nan Gibson, Colleen Healy, Elisabeth Jacobs, 
Justin Ungson, Andrew Wilson, Rachel Greszler, Lydia Mashburn, 
Jeff Schlagenhauf, and Chris Frenze.

  OPENING STATEMENT OF HON. CAROLYN B. MALONEY, CHAIR, A U.S. 
                  REPRESENTATIVE FROM NEW YORK

    Chair Maloney. The meeting will come to order. And I 
welcome our ranking member and other members of the committee, 
and of course our wonderful panelists. I have to acknowledge 
that Ms. Maatz used to work with me when she was a fellow here. 
So it is wonderful to have this occasion to have you back 
before us. The Chair recognizes herself for an opening 
statement, and will be followed by the ranking member.
    Good morning. I want to welcome our distinguished panel of 
witnesses and thank all of you for your testimony today. This 
hearing is timely because today is Equal Pay Day, the day that 
symbolizes how far into the year that the average full-time 
working woman must work to earn as much as her male counterpart 
earned the previous year.
    We have made a great deal of progress in closing the gap 
between men and women's wages since President Kennedy signed 
the Equal Pay Act in 1963, but as the saying goes, women's work 
is never done. Women earn just $0.78 on the dollar compared to 
men doing the exact same work. For minority women, the wage gap 
is even larger. African American women earn only $0.62 for 
every dollar earned by white men, and Hispanic women fare 
worse, earning only $0.53.
    The report released by the GAO provides additional evidence 
of the persistence of the gender pay gap, but the workplace 
setting is particularly troubling. The Federal Government 
should be a model employer, but today's report tells us we have 
considerable work left to do to live up to that promise. The 
GAO finds that an $0.11 gap remains between men and women's pay 
in the Federal workforce, even after accounting for measurable 
differences like education, occupation, and work experience. 
The report also finds that the total pay gap shrank between 
1988 and 2007 from $0.28 on the dollar to $0.11 on the dollar. 
However, the share of the gap that can't be explained has 
remained remarkably constant at $0.07, and you can see that 
right on the chart over there. Those $0.07 may be explained by 
discrimination against female Federal employees. The pay gap in 
the Federal workforce that GAO found reflects troubling pay 
disparity issues in the broader labor market.
    I am proud to have successfully fought for equal 
compensation after September 11th. The compensation plan for 
victims' families, as it originally was proposed, was based on 
outdated government formulas that assumed that women victims 
would have worked for less of their lives than their male 
counterparts. In effect, the proposed system of compensation 
was providing less for the family of women victims simply 
because they were families of women.
    This I think is very sobering and outrageous, and a 
reminder of how institutionalized gender discrimination can be, 
and that there are many battles yet to be won. Of course, along 
with many like-minded women and men, we had this changed so 
that the Victims Compensation Board gave the same to the 
families of both men and women. But we constantly have to raise 
the issue because many people just naturally assume that women 
should be treated in a lesser way.
    Women are more productive and better educated than they 
have ever been, but their pay hasn't yet caught up. The pay gap 
affects women at all income levels and across a wide range of 
occupations, and it widens as women grow older.
    Equal pay is not just a woman's issue, it is a family 
issue. The impact of the wage gap is particularly painful in 
our current economic downturn, as families struggle to make 
ends meet in the face of stagnant wages and job losses.
    Estimates of how much women stand to lose over their 
lifetime due to unequal pay practices range from $700,000 for a 
high school graduate to $2 million for doctors and lawyers, 
according to the WAGE Project. Every dollar counts. So now, 
more than ever, families should not be short-changed by gender 
pay differentials.
    The GAO previously has found that women with children earn 
about 2.5 percent less than women without children, while men 
with children enjoy an earnings boost of 2.1 percent. So in 
other words, if you become a father you get a raise, if you 
become a mother you get a demotion.
    While some of the gender pay gap can be explained by 
differences in men's and women's occupations and leave 
patterns, study after study show that a substantial portion of 
the gap remains unexplained. Women continue to bump up against 
everything from subtle biases to egregious acts of 
discrimination relating to gender stereotypes about hiring, pay 
raises, promotions, pregnancy, and care-giving 
responsibilities.
    The Lilly Ledbetter bill was an important start, but 
additional legislation is necessary to close the loopholes in 
the Equal Pay Act that allow discrimination to persist. I am 
proud to be a cosponsor of the Paycheck Fairness Act, which 
passed the House of Representatives earlier this session, and I 
hope the Senate will soon take action.
    Better work-life balance policies would allow both mothers 
and fathers to continue to support their families and develop 
their careers. By ensuring that women aren't forced to start 
all over again in new jobs, paid leave policies can help keep 
women on an upward track in their careers, protecting their 
earnings. The Federal Employees Paid Parental Leave Act, which 
I have sponsored, would do just that.
    By recognizing the persistence of the problem and taking 
action, we have the opportunity to make next year's Equal Pay 
Day a celebration of progress, and we hope that will happen.
    [The prepared statement of Representative Maloney appears 
in the Submissions for the Record on page 32.]
    And I look forward to the testimony of the witnesses and 
recognize my colleague, the ranking member, for his opening 
statement.

 OPENING STATEMENT OF HON. KEVIN BRADY, A U.S. REPRESENTATIVE 
                           FROM TEXAS

    Representative Brady. Thank you, Madam Chairman. I think 
this is an important issue to all of us. I am pleased to join 
in welcoming the panel of witnesses before the committee this 
morning.
    A key focus of this hearing, as noted, is the new 
Government Accountability Office report on women's pay in the 
Federal workforce. According to the new GAO report, the 
difference between men and women's average salaries declined 
significantly in the Federal workforce between 1988 and last 
year. The study notes that the pay gap narrowed as men and 
women in the Federal workforce increasingly shared similar 
characteristics in terms of the jobs they held, their 
educational achievement, and their levels of experience.
    Between 1988 and 2007, the gap between men and women's pay 
had declined from $0.28 on the dollar to $0.11. GAO reports 
some or all of the remaining $0.07 of the remaining gap might 
be explained by factors for which we lack data or are difficult 
to measure, such as work experience outside the Federal 
Government. GAO was careful to state that its findings do not 
prove or disprove pay discrimination.
    The trends noted in the GAO report are similar to those 
observed in the overall economy in recent decades. The pay 
differential of men and women, once adjusted for occupation, 
education, experience, hours, and leave, has fallen over time. 
Although some differences remain, men and women with similar 
characteristics working the same kind of occupations have 
comparable pay.
    The progress women have made over the years is reflected in 
a number of ways. Between 1970 and 2007, the women's labor 
force participation rate increased from 43 percent to 59 
percent. Women now receive a majority of undergraduate and 
graduate degrees. And in 2007, women held over half the jobs in 
well-paid management and professional occupations.
    However, as Diana Furchtgott-Roth notes in her testimony 
this morning, higher marginal tax rates could effectively raise 
taxes on married women by increasing the marriage penalty for 
some two earner couples. I am also very concerned, given the 
grim fiscal outlook, the application of these higher tax rates 
will eventually be much broader than those proposed by the 
administration. Emerging policies of much higher taxes and 
government spending, by undermining economic and unemployment 
growth, will harm both women and men in the workforce.
    I would yield back.
    [The prepared statement of Representative Brady appears in 
the Submissions for the Record on page 33.]
    Chair Maloney. The gentleman is recognized for his opening 
statement, Mr. Cummings.

     OPENING STATEMENT OF HON. ELIJAH E. CUMMINGS, A U.S. 
                  REPRESENTATIVE FROM MARYLAND

    Representative Cummings. Thank you very much, Madam 
Chairlady. I want to thank you, Madam Chair. You have been a 
tireless advocate for gender equality in the workforce. And 
especially, today on Equal Pay Day, it should not go unnoticed. 
I hope today's hearing helps shed light on the continuing 
practices that prevent full equality in the workplace, and I 
look forward to working with you to eliminate such wrongdoing.
    For the past 3 months, the Bureau of Labor Statistics has 
reported nearly 600,000 jobs lost each month. I suspect next 
Friday we will hear similarly staggering figures. With so many 
of our families led by a single female parent, I am deeply 
disappointed that our mothers and sisters have to face not only 
the rising tide of unemployment, but also what amounts to a 
gender tax.
    As we have heard in the past, there is a component of the 
gap between wages of similarly situated male and female 
employees which no variable can explain in detailed analysis, 
and which many attribute to discrimination. I am especially 
disheartened to see that the wage disparity widens in the cases 
of women with advanced degrees. After putting in the years and 
years of effort to earn such degrees, many women still earn a 
wage that is lower than equally educated male counterparts, 
which belittles the time and effort required to earn these 
credentials.
    Equally saddening are the statistics that show women who 
are also minorities face race discrimination on top of gender 
bias. The persistence of any element of unequal treatment that 
prevents any American from achieving the full measure of her 
potential, while enjoying the full benefits of the rights 
guaranteed by our Constitution, is simply unacceptable.
    Now, importantly, we face the situation in which many 
assume that given the wide participation of women in the 
workplace, equality has been achieved. Frankly, on many fronts 
many Americans assume that discrimination is a thing of the 
past.
    Today's hearing is an important reminder that, sadly, we 
cannot limit our vigilance or expect that discrimination is 
always and only characterized by actions that are readily 
apparent. That is why we need to provide those who have been 
harmed with requisite remedies, strengthen penalties for 
discrimination, and increase enforcement of these offenses.
    For that reason, I was extremely pleased to join so many of 
my colleagues in cosponsoring the Lilly Ledbetter Fair Pay Act 
of 2009. This legislation is a perfect example of what can be 
achieved by collaboration between President Obama and this 
Congress. The Fair Pay Act starts us down the road to eventual 
elimination of the gender wage disparity, and the remedies 
provided in the bill are the first steps towards this goal. It 
is my sincere hope that the additional protections and remedies 
found in the Paycheck Fairness Act are also signed into law 
during this Congress.
    The witnesses before us today have written forcefully and 
articulately on the role of gender in the labor market. As a 
result, I look forward to a frank discussion about what can be 
done to address the harms done and to prevent further harm 
moving forward.
    With that, Madam Chair, I yield back.
    [The prepared statement of Representative Cummings appears 
in the Submissions for the Record on page 33.]
    Chair Maloney. Thank you very much. Now I would like to 
introduce our distinguished panel. Dr. Andrew Sherrill is a 
Director of Education, Workforce and Income Security Issues at 
the U.S. Government Accountability Office. He oversees GAO's 
work on worker protection and workforce development issues, and 
has worked at GAO for 19 years. Mr. Sherrill has led GAO teams 
in producing reports to Congress on topics including the gender 
pay gap, offshoring of services, and welfare reform. He 
received his master's degree and Ph.D. in philosophy from the 
University of Texas at Austin, and also attended the 
university's LBJ School of Public Service.
    Dr. Randy Albelda is a Professor of Economics and Senior 
Research Associate at the Center for Social Policy at the 
University of Massachusetts Boston. Her research and teaching 
covers a broad range of economic policies affecting women, 
especially low income women and families. She has written 
dozens of articles and books on women's economic status. She is 
the co-author of the books Unlevel Playing Fields: 
Understanding Wage Inequality and Wage Discrimination; and 
Glass Ceilings and Bottomless Pits: Women's Work, Women's 
Poverty.
    And I am very thrilled that Lisa Maatz, my good friend, has 
served as the Director of Public Policy and Government 
Relations at the American Association of University Women since 
2003. For over a year, she also served as the Interim Director 
of the AAUW Legal Advocacy Fund. Since 1881, AAUW has been the 
Nation's leading voice promoting equity and education for all 
women and girls. Ms. Maatz has also worked for the NOW Legal 
Defense Education Fund and Older Women's League, and was a 
legislative fellow in my office. She is a Phi Beta Kappa 
graduate of Ohio University, has two master's degrees from Ohio 
State, and holds an adjunct appointment with the Women and 
Politics Institute at American University, and a mayoral 
appointment to the Washington D.C. Commission on Women.
    Dr. Diana Furchtgott-Roth is a Senior Fellow at Hudson 
Institute and directs the Center for Employment Policy. From 
February 2003 to April 2005, she was Chief Economist of the 
U.S. Department of Labor. Previously, she served as Chief of 
Staff at the President's Council of Economic Advisers. Ms. Roth 
was Assistant to the President and Resident Fellow at the 
American Enterprise Institute from 1993 to 2001. And Ms. 
Furchtgott-Roth received her B.A. in economics from Swarthmore 
College, and her master's in philosophy and economics from 
Oxford University.
    I thank all of you for coming today. And Mr. Sherrill, 
please proceed with your testimony. And all of you will be 
given 5 minutes to summarize your testimony so that there is 
plenty of time for questions. Again thank you for your work and 
thank you for being here today.

 STATEMENT OF ANDREW SHERRILL, DIRECTOR, EDUCATION, WORKFORCE, 
     AND INCOME, SECURITY ISSUES, UNITED STATES GOVERNMENT 
                     ACCOUNTABILITY OFFICE

    Mr. Sherrill. Chair Maloney and members of the committee, I 
am pleased to be here today, on Equal Pay Day, to discuss the 
gender pay gap in the Federal workforce. Previous research 
shows that despite improvements over time, a pay gap remains 
between men and women in both the U.S. workforce as a whole and 
within the Federal Government.
    My statement today is based on the report that has been 
released titled Women's Pay: Gender Pay Gap in the Federal 
Workforce Narrows as Differences in Occupation, Education, and 
Experience Diminish. To prepare the report, we used data from 
the Office of Personnel Management's Central Personnel Data 
File. This is a database that contains salary and employment-
related information for the majority of civilian employees in 
the executive branch. We used this data to perform two kinds of 
analysis, first a cross-sectional analysis that took snapshots 
of the Federal workforce in 1988, 1998, and 2007, to examine 
differences in pay between men and women in the workforce as a 
whole over a 20-year period. For the second analysis, we 
tracked a group or cohort of employees who entered the 
workforce in 1988 to examine differences in pay and the effects 
of breaks in service and unpaid leave over a 20-year period.
    My statement today focuses on the following question: To 
what extent has the pay gap between men and women in the 
Federal workforce changed over the past 20 years, and what 
factors account for the gap?
    Using our cross-sectional analysis, we found that the pay 
gap, the difference between men and women's average pay before 
taking into account any explanatory factors, declined over the 
20-year period. As you can see from our multi-colored chart 
here, specifically the overall size of each of the three bars, 
the pay gap declined from $0.28 on the dollar in 1988 to $0.19 
in 1998, and further to $0.11 in 2007. For each of the 3 years, 
all but about $0.07 of the gap, the white portion of each bar, 
can be explained by differences in measurable factors between 
men and women. Differences in occupation--the green part of 
each bar--was the major explanatory factor, followed to a 
lesser extent by differences in education levels--the orange 
part--and years of Federal experience--the purple part. The 
yellow portion of the bar represents differences in all other 
characteristics we measured.
    The pay gap diminished over time largely because men and 
women in the Federal workforce are more alike in these 
characteristics than they were in past years. For example, with 
regard to occupation, the pay gap decreased in part because 
clerical, professional, and administrative occupational 
categories became more integrated by gender over time. In 
particular, changes in the government's clerical workforce 
explain a large reduction in the pay gap.
    In 1988, the clerical workforce was among the lowest paid. 
It accounted for 38 percent of all female Federal workers. From 
1988 to 2007, the clerical workforce shrank in size by about 61 
percent, a big drop, and also became more integrated, with the 
proportion of women decreasing from 85 percent to 69 percent.
    The gap also decreased as men and women in the Federal 
workforce became increasingly similar in their levels of 
education. For example, in 1988, the percentage of men that 
held a bachelor's degree or higher was 17 percentage points 
higher than for women, compared with 6 percentage points higher 
by 2007.
    Finally, men and women in the Federal Government became 
increasingly similar in their levels of Federal experience. On 
average, men in 1988 had nearly 4 more years of Federal 
experience than women, whereas by 2007 women on average had 
slightly more Federal experience than men.
    In each of the 3 years we examined, our model cannot 
account for about $0.07 of the pay gap. We cannot be sure what 
accounts for this portion, but it could be due to other factors 
which may be difficult to measure.
    It is important to note this analysis neither confirms nor 
refutes the presence of discriminatory practices. For our 
second analysis, which examined the cohort of employees who 
entered the Federal workforce in 1988, we found that the gender 
pay gap grew from $0.22 on the dollar in 1988 to $0.25 by 2007. 
Again differences between men and women's characteristics that 
could affect pay, especially occupation, explained a 
significant portion of the pay gap. Specifically, differences 
in the occupations held by men and women in the group explained 
between $0.11 and $0.19 of the pay gap over the 20-year period.
    We also looked at differences in the use of unpaid leave or 
breaks in service. They did not contribute significantly to the 
pay gap for this 1988 cohort. Women in the cohort were more 
likely to take unpaid leave or have a break in service than 
men, but when we did the analysis the differences in the use of 
unpaid leave and breaks in service consistently explained less 
than 1 percent of the pay gap for this 1988 cohort.
    Madam Chair, that concludes my remarks. I would be happy to 
answer any questions you or other members may have.
    [The prepared statement of Andrew Sherrill appears in the 
Submissions for the Record on page 35.]
    Chair Maloney. Thank you, Mr. Sherrill. Dr. Albelda.

    STATEMENT OF DR. RANDY ALBELDA, PROFESSOR OF ECONOMICS, 
            UNIVERSITY OF MASSACHUSETTS, BOSTON, MA

    Ms. Albelda. Good morning and thank you for the opportunity 
to testify about the persistent wage gap between men and women. 
While there has been progress in reducing the pay gap between 
men and women over the last several decades, it is still the 
case that women on average make less than men.
    In the mid-1970s, the National Organization for Women 
issued $0.59 buttons. We can turn them in and pick up $0.78 
buttons saying that year round full-time women workers make 
$0.78 for every man's dollar.
    While there are some differences in what men and women 
bring to the workplace that influences the level of pay, those 
differences only account for a small part of the gender gap, 
which we saw not only in the Federal labor force, but we have 
seen in the labor force as a whole. Women have somewhat less 
work time than men, but they now have higher levels of 
educational attainment. Adjusting for these differences narrows 
the gap, but only a bit.
    Women do tend to work in different occupations and jobs 
than men do, but even when men and women work in the same 
occupations, women typically earn less than men. Of the over 
100 detailed occupations for which we have median earnings, 
there are only six occupations out of these 100 in which 
women's earnings are higher than those of men. Economists find 
even when they adjust for all the factors they can possibly put 
into an econometric study that might explain the differences 
between men and women's pay, they still find a portion of that 
wage gap unexplained by those differences. And that is that 
$0.07. We find actually $0.09 on average in these studies. And 
importantly, this gap, this unexplained gap, has been 
persistent.
    And so over time, pay equity has stalled as men and women's 
experience and labor force participation rates become closer. 
So why? Why is this pay gap? I would say there are three main 
reasons why men earn more than women on average.
    The first is some of the things that we have been talking 
about today, which is workplace discrimination. And Lilly 
Ledbetter's experience reminds us that workplace discrimination 
is alive and well. Routinely women are not hired at all, hired 
at lower wages, or not promoted over equally qualified men.
    But there are two other reasons why women earn less than 
men besides workplace discrimination, which have to do with, I 
think, gender inequality in general. One is that women are in 
different occupations than men. Men are much more likely to be 
in construction and manufacturing jobs, which pay more than 
female-dominated jobs with comparable skill levels such as 
administrative assistants or retail sales clerk.
    At the higher end, professional managerial jobs are often 
sex segregated. Women predominate in the lower paying 
professional jobs like teaching, nursing, and social work, 
while men predominate in higher paying architecture, 
engineering, and computer occupations.
    But importantly, women are disproportionately employed in 
what we call the care sector. The care sector are the 
industries which educate our children, provide us with health 
services, and take care of young children, disabled adults, and 
the elderly. About 20 percent of all workers work in this care 
sector, and it is one of our fastest growing sectors. And women 
comprise 75 percent of all workers. Careful research has shown 
that care workers, paid care workers, are not rewarded 
commensurately with their skills and experience.
    Thirdly, the other thing that I think helps explain the 
wage gap between men and women is that family responsibilities 
squeeze women's work time and preclude them from taking and 
keeping jobs that make few accommodations for those 
responsibilities. Jobs that require long hours often pay well 
and provide a strong set of employer benefits, but employers 
who employ those workers assume those workers in those jobs are 
unencumbered by household and family responsibilities. Research 
clearly demonstrates the existence of a mother's wage penalty.
    The recession makes addressing this issue especially 
important because women's earnings are a vital, if not main 
component of family well-being. One-third of all households are 
maintained by women. One-half of all households are married 
couples. And in those households, two-thirds of wives are 
employed. Furthermore, wives' earnings comprise 35 percent of 
family income. In this recession, more men have lost jobs than 
women have so far. As a result, even more households are more 
dependent on women's earnings.
    The stimulus package will help both men and women, but 
differently. So it will be important to pay attention to these 
differences as part of the spending oversight. Increased funds 
for physical infrastructure, improved medical record keeping, 
and green energy investments will likely create more jobs for 
men than women. Conversely, increased funding to the States, 
especially for health care and education, will reduce the 
number of layoffs for women since they are more heavily 
employed there.
    What can we do to reduce the pay gap? I think we have to 
address the three issues somewhat separately. First, addressing 
workplace discrimination. Ensure that our current anti-
discrimination laws are enforced. Second, pass the Paycheck 
Fairness Act. And third, I would say pass the Employee Free 
Choice Act, as unions, as much as higher education if not more, 
boost women's wages. They improve the likelihood that they will 
have health insurance, and they provide structured mechanisms 
to pursue employer discrimination.
    In terms of addressing occupational sorting, increase the 
minimum wage. Women predominate in low wage jobs. Improve wages 
for care workers because government provides most of that money 
for that employment, and target stimulus money to ensure that 
women and minorities are included in physical infrastructure 
projects.
    Finally, address family responsibility discrimination. And 
in this case we need to assure that the laws that protect 
workers with caregiver's responsibility are enforced like, the 
FMLA, the Family Medical Leave Act. Extend FMLA to support more 
workers, and make it paid. Finally, develop legislation that 
encourages employers to negotiate with employees over flexible 
work arrangements.
    Thank you.
    [The prepared statement of Randy Albelda appears in the 
Submissions for the Record on page 46.]
    Chair Maloney. Thank you very much. Ms. Maatz.

    STATEMENT OF LISA MAATZ, DIRECTOR OF PUBLIC POLICY AND 
 GOVERNMENT RELATIONS, AMERICAN ASSOCIATION OF UNIVERSITY WOMEN

    Ms. Maatz. Good morning.
    Chair Maloney. Good morning.
    Ms. Maatz. Wonderful to be here, Chairwoman Maloney and 
members of the committee. I am very happy to be here, and thank 
you for the opportunity to testify about the critical issue of 
pay equity.
    AAUW has a proud 127-year history of breaking through 
barriers for women and girls, and in fact we released our first 
report on pay equity way back in 1913. Pay equity is still 
particularly relevant today.
    AAUW believes it is critical that in these tough economic 
times that women workers, indeed all women workers, don't just 
survive the economic downturn, but in fact that we continue the 
march towards fair pay and workplace opportunity. Empowering 
women is one investment that always pays off not only for the 
women themselves, but for their families and the entire Nation. 
As the recession continues, women are increasingly becoming the 
sole breadwinners for their families, making pay equity not 
just a matter of fairness, but the key to families making ends 
meet.
    According to a White House report, nearly 1.5 million jobs 
saved or created by the American Recovery and Reinvestment Act 
are likely to go to women. The recovery package clearly is 
counting on women to play a key role in the Nation's economic 
recovery and their ability to do so is increased considerably 
when women's paychecks are a fair reflection of their work.
    This is just one of the reasons why new legislation 
strengthening pay equity laws is not only necessary, but 
timely, amounting to an equity economic stimulus, if you will.
    I am also pleased to talk about AAUW's research report 
Behind the Pay Gap, which provides reliable evidence that sex 
discrimination in the workplace continues to be a problem. AAUW 
found that just 1 year out of college, women earn only 80 
percent of what their male counterparts earn. Even women in the 
same major and occupation earn less than their male 
counterparts. Ten years after graduation, women fall further 
behind, earning only 69 percent of what men earn. Even after 
controlling for factors known to affect earnings, some of this 
gap remains unexplained. That is after controlling for 
factors--now this is quite a list, so bear with me--for factors 
like major, occupation, industry, hours worked, workplace 
flexibility, experience, educational attainment, GPA, 
institution selectivity, age, race and ethnicity, region, 
marital status, and children, even when we control for all of 
those factors, a 5 percent difference in the earnings of male 
and female graduates is unexplained 1 year after graduation.
    Choices explain even less of the pay gap 10 years after 
graduation. Controlling for a similar set of factors, including 
motherhood, we found a 12 percent difference in the earnings of 
male and female graduates is unexplained and attributable only 
to gender.
    Here is the critical take-away from AAUW's report. Women 
are investing in education and increasingly entering male-
dominated fields, yet a pay gap remains that can't be explained 
or accounted for completely by women's choices.
    AAUW's research asked a basic but very important question. 
If women made the same choices as a man, would she earn the 
same pay? I am sorry to say that the answer was no. Women have 
excelled at school, changed their work and family patterns, 
gone into nontraditional fields, and still the pay gap remains. 
It is not unreasonable to assume that discrimination plays a 
role, and as a result, more needs to be done on that front as 
well.
    Unfortunately, women's educational gains, ironically 
motivated in part by women's desire for economic security, have 
not translated into equal pay for women in the workplace. In 
fact, a college degree, while it does absolutely increase 
women's earnings, the pay gap remains larger for college 
graduates than for the population as a whole.
    AAUW's research provides strong evidence that sex 
discrimination in the workplace is not disappearing on its own. 
While enactment of the Lilly Ledbetter Fair Pay Act was a 
critical first step, the next step is for the Senate to pass 
the Paycheck Fairness Act. As the Congresswoman has already 
mentioned, the House already passed the bill in January, by an 
even stronger vote, I might add, than the Ledbetter bill.
    Passing both bills is critical to the overall goal of 
achieving pay equity for all. Ledbetter was a narrow fix that 
simply returned legal practices and EEOC policies to what they 
were the day before the Supreme Court decision in Ledbetter, 
nothing more, nothing less. The Paycheck Fairness Act is a much 
needed update of the 45-year-old Equal Pay Act, closing long-
standing loopholes to prevent any discrimination.
    Together these bills can help to create a climate where 
wage discrimination is not tolerated, and give the 
administration the enforcement tools it needs to make real 
progress on pay equity.
    Here is the bottom line. There is a pay gap that most 
economists agree can't be explained away by women's choices no 
matter how convenient, no matter how much easier it would be 
for critics if that were the case. And we ignore that gap at 
our peril. When women don't earn fair pay, they are not the 
only ones to suffer. Their families do too.
    It is also ironic and short-sighted in a nation that needs 
women's labor to be competitive in a global marketplace. 
Skeptics like to claim that there is no real pay gap--that 
somehow it is all a product of our imaginations. Worse, these 
critics prefer to blame women, especially working mothers, for 
any pay disparities, saying that the pay gap is due to the 
choices that women make.
    But excuses are excuses and facts are facts. Policymakers 
need to take a long, hard look at why the marketplace punishes 
women for being mothers or, as AAUW's research has showed, for 
simply their potential to be mothers, while fatherhood carries 
no wage penalties and may in fact carry financial benefits.
    It is time to pass the Paycheck Fairness Act, and it is 
time for women's paychecks to catch up with our achievements. 
Thank you, and I look forward to your questions.
    [The prepared statement of Lisa Maatz appears in the 
Submissions for the Record on page 54.]
    Chair Maloney. Thank you. Ms. Furchtgott-Roth?

   STATEMENT OF DIANA FURCHTGOTT-ROTH, DIRECTOR, CENTER FOR 
       EMPLOYMENT POLICY, SENIOR FELLOW, HUDSON INSTITUTE

    Ms. Furchtgott-Roth. Thank you very much. Ms. Chairwoman 
and members of the committee, I am honored to be invited to 
testify before you today. I have followed and written about 
these and related issues for many years. I am the co-author of 
two books on women in the labor force, Women's Figures, and The 
Feminist Dilemma: When Success Is Not Enough.
    As the GAO report over here shows, women generally have 
equal pay for equal work now if they have the same jobs, 
responsibilities, and skills. Members of Congress are paid 
identically, regardless of gender, as are many other men and 
women with the same job. Two entry level cashiers in a 
supermarket, one male and one female, usually are paid the 
same, as are male and female first year associates of law 
firms. If they believe they are underpaid, they can sue for 
discrimination under current law.
    The 78 percent figure comes from comparing the 2007 full-
time median annual earnings of women with men, the latest year 
available from the Census Bureau. The 2007 Department of Labor 
data show that women's full-time median weekly earnings are 80 
percent of men. Just comparing men and women who work 40 hours 
weekly, without accounting for any differences in jobs, 
training, or time in the labor force yields a ratio of 87 
percent.
    These wage ratios are computed from aggregate government 
data and don't take into account differences in education, job 
title, and responsibility. When economic studies include these 
major determinants of income, as the GAO study showed, the pay 
gap shrinks even more.
    Nevertheless, we need to do all we can to level the playing 
field so that women are not discouraged by our institutions 
from dropping out of the workforce. One change that has been 
recently proposed has been to allow the top tax rate to rise. 
This would adversely affect married women, because their 
incomes are frequently secondary. It would not only discourage 
marriage, but also discourage married women from working.
    Take a nurse, for example, Amanda, with a taxable income of 
$50,000 who wants to marry Henry, who owns an electrical supply 
store and has a taxable income of $160,000. Unmarried, he is in 
the 28 percent bracket and she is in the 25 percent bracket. 
When they get married they will be taxed at 33 percent, rising 
to 36 percent in 2011 if Congress allows taxes to rise. By 
raising taxes on upper income Americans, Congress would worsen 
our system's tax penalty on two-earner married couples, and 
Amanda and Henry, and countless others like them, would pay a 
lot more taxes married than single.
    In President Obama's new budget, he outlined plans to allow 
the two top tax rates to rise from 33 to 36 percent, and from 
35 to 39 percent. In addition, taxpayers wouldn't receive the 
full value of their deductions. Taxes would rise for singles 
with taxable income over $172,000, and married couples over 
$209,000.
    Even if Amanda and Henry were not immediately affected by 
these, these rates might well affect Amanda when she earned 
more, unless, of course Amanda and Henry decide to have 
children and Amanda left the workforce to care for them. Say 
that Amanda's taxable income rose to $60,000, so she and Henry 
had a combined income of $220,000, putting them in the new 36 
percent tax bracket. But if she dropped out of work and stayed 
at home to look after the children, their tax bracket would be 
28 percent.
    Our tax system should not make it harder for women to work. 
The penalty falls most heavily on married women who have 
invested in education, hoping to shatter the glass ceiling and 
compete with men for managerial jobs. It does not have to be 
that way. Congress could leave taxes as they are now, with a 
flatter structure of taxes so that couples don't face higher 
taxes upon marriage.
    Labor Department data show that as the average number of 
earners in the household rises so do income levels. One 
characteristic of the highest earning one-fifth of couples, the 
top quintile, is they have an average of two earners per 
household. The middle quintile has one and a half earners per 
household on average. And the lowest earning fifth has an 
average of half an earner per household; in other words, more 
part-time and unemployed workers. Therefore, when workers 
marry, more households move into the top quintile of income 
distribution.
    When Congress tries to raise the taxes on top earners, then 
working women are disproportionately affected, even if, like 
Amanda, they do not earn very much by themselves. For Congress 
to announce that taxes on the top end of the scale will rise is 
an explicit attack on married working women, especially those 
who own their own businesses.
    Thank you very much for giving me the opportunity to appear 
before you today.
    [The prepared statement of Diana Furchtgott-Roth appears in 
the Submissions for the Record on page 59.]
    Chair Maloney. I want to thank all the panelists for their 
very important testimony today.
    Dr. Sherrill, last year I requested a report from GAO 
regarding the enforcement of anti-discrimination policies. The 
GAO recently released that report, which concluded that serious 
problems exist in the enforcement of anti-discrimination 
statutes and regulations within both the Equal Employment 
Opportunity Commission and the Department of Labor.
    Could you comment on these findings and address any changes 
that have been made as a result of your report? Dr. Sherrill?
    Mr. Sherrill. I would be happy to do that. We made 
recommendations to both the Equal Employment Opportunity 
Commission and the Department of Labor to strengthen their 
enforcement strategies. We made one particular recommendation 
to both agencies. We found that neither one was systematically 
monitoring the charges that are filed in the area of gender pay 
violations. So as a result, neither one of the agencies is 
tracking these. They don't have a good sense of what are the 
trends in this area. They can't tell how effective are the 
enforcement strategies that they are using. And so as a result, 
they don't know to what extent their resources are being well 
invested. So we recommended that both of them do a better job 
monitoring and tracking this.
    In addition, we made other recommendations to the 
Department of Labor. There are issues there with regard to 
Labor. For example Labor has a certain mathematical model it 
uses to select contractors to focus on for investigations, but 
Labor has not assessed that model. Labor requires contractors 
to self-evaluate their compensation systems, but does not have 
good data and follow-up on to what extent that is happening.
    The Equal Employment Opportunity Commission agreed with our 
broad recommendations, so we will be monitoring how they 
implement them. We also made a series of recommendations to 
Labor. The Department of Labor did not take a position on our 
recommendations. As part of our normal efforts, we will be 
tracking how they are implementing the various recommendations 
we have made to improve their enforcement.
    Chair Maloney. And Dr. Sherrill, one of the analyses you 
conducted in your report suggests that leave patterns do not 
explain very much of the gender pay gap in the Federal 
workforce. I found that interesting. I always thought a lot of 
studies say that the disparity between men and women is the 
different choices of leaving work to have a child, taking care 
of a sick parent. So that was very interesting to me. And could 
you comment on that a little more?
    Mr. Sherrill. Yes, that was also interesting. As we tried 
to analyze the results of that, we looked at the impact of 
unpaid leave, and we found that it had very little role in 
reducing the unexplained portion of the gap. Women had a higher 
propensity to use unpaid leave: 18 percent of women versus 11 
percent of men over our 20-year period had unpaid leave over 30 
days. But that was counterbalanced by the cost of unpaid leave 
being higher for men than women. So there were two 
counterbalancing factors that we saw. We weren't able to 
measure the duration of the unpaid leave, so there were some 
data limitations to our analysis.
    With regard to breaks in service, women had slightly higher 
propensity to have breaks in service: 17 percent of women 
versus 15 percent of men had breaks in service over time. 
Women's breaks were somewhat longer. But this didn't have any 
effect on the pay gap.
    Chair Maloney. Other studies that I have read show that 
leave patterns do affect the gender pay gap. And very 
interestingly, in a lot of studies, including one you did on a 
new look at the glass ceiling, it talked about the ``mom 
bomb,'' where you become a mother, you get demoted, you become 
a father, you get a promotion. And could you explain that a 
little more? It says that women really pay a high price for 
motherhood, while men actually see their pay increase. Did you 
see that in your study or did you look at that time in this 
one? I know it was in your other studies.
    Mr. Sherrill. We didn't look at it in this study. And I 
need to mention a caveat here, because the analysis we did in 
this study of the Federal workforce of unpaid leave and breaks 
in service was just for the 1988 cohort or group. So we didn't 
have such data available to do this analysis for the workforce 
as a whole over time.
    But we had done an earlier report in 2003 looking at the 
gender pay gap for the general workforce. And in that study we 
found that differences in women's work patterns, like breaks in 
service, unpaid leave and part-time schedules, was a major 
explanatory factor there. So we got somewhat of a different 
picture when we looked at the Federal workforce using the data 
system we had available here.
    Chair Maloney. Thank you very much. My time has expired. My 
colleague, Mr. Brady, for 5 minutes.
    Representative Brady. Thank you, Madam Chairman. I know Ms. 
Maatz has been eagerly awaiting the chance to call you Madam 
Chairman of the committee.
    Ms. Maatz. Absolutely.
    Representative Brady. By the way, we have a great local 
chapter of Association of Women as well----
    Ms. Maatz. Yes, you do.
    Representative Brady [continuing]. In the Houston, north 
Houston area.
    Federal workforce is 5 percent of the entire workforce 
would you guess, Mr. Sherrill? A little bigger?
    Mr. Sherrill. I don't know right offhand.
    Ms. Albelda. I would say it is smaller.
    Representative Brady. Somewhere thereabouts. We will get 
the numbers. But one, I appreciate you doing the study. 
Clearly, it shows we are making progress. But until we get to 
the goal of zero, no difference between men and women doing 
equal jobs with equal experience and all, this goal hasn't been 
met.
    I think in the small business community, which creates 80 
percent of all new jobs in America, you have seen dramatic 
improvement over the last couple decades. I have more 
experience there than I do in government. I was a Chamber of 
Commerce manager, so I worked with small business 
professionals. What we saw were in businesses where basically 
hiring the best people and keeping them is the difference 
between survival and bankruptcy, where you know if you don't 
treat people right someone down the street is going to hire 
them away and survive and profit better than you. What I saw in 
our communities was that women were quickly moving into 
positions of hospital executives, banking executives, ran small 
businesses very effectively. And in fact, I think in the free 
market system the market itself helps eliminate discrimination, 
because simply companies that practice it fall behind, 
companies that hire and reward the best workers prosper.
    Which is why I wanted to ask Ms. Furchtgott-Roth about what 
you described as sort of a tax attack on working women. Because 
I have seen this within the small business community, where we 
encourage women to get that degree, we encourage them to go 
into management positions, we are trying to maximize their 
potential to society and the marketplace, yet those are the 
very people that this new budget would tax the most and 
penalize the most. And in fact, these tax proposals aren't on 
the wealthy, they are on professionals and small businesses, 
the very ones who we are encouraging to break those glass 
ceilings.
    Although slated to go away next year but come back in 
almost full force in the year after that--in real life we are 
seeing more women and minority-owned businesses getting swept 
up in the death tax, again a tax aimed at the wealthy. In fact, 
it is the thought that you would work your whole life, start a 
small business, work your whole life to build it up, have a 
nest egg to hand down to your children or grandchildren, and 
then have Uncle Sam swoop in at the end and take nearly half of 
it is something that many women-owned businesses now are 
fearing as perhaps the biggest barrier to handing all their 
hardworking wealth on to their family.
    Can you talk more about the impact of this tax attack on 
working women?
    Ms. Furchtgott-Roth. Well, you are absolutely right, 
because when a woman goes into the workforce she doesn't just 
pay Federal tax, she also pays transportation costs, child 
care, State tax. There are all these things that she pays. And 
this is piled on top of her husband's rate. And in the top 
quintile, the top fifth of American households, the one 
distinguishing feature is that there are two earners. So these 
two earner couples are in the top quintile as opposed to the 
middle quintile, where there is one and a half earner per 
family. So maybe every other family has two workers in the 
workforce. So increasing the Federal tax means that the woman, 
whose income is frequently secondary if she moves in and out of 
the workforce, is discouraged from returning to work. Because 
when you add everything up, there are some families who say, 
well, it is just not worth you going back to work, dear, Uncle 
Sam is going to take most of the money. And that is something 
that we want to work to prevent. We don't want those top tax 
rates to go up because it hurts these married women.
    Representative Brady. And that is my concern. I think 
encouraging more to come through the front door, as they 
should, than to take more out of their taxes in the back door--
--
    Ms. Furchtgott-Roth. Exactly.
    Representative Brady [continuing]. Seems to be punishing 
the very entrepreneurial behavior and achievement we want from 
women.
    Ms. Furchtgott-Roth. Right. Exactly. We want to have as 
flat a tax structure as possible so that when married women go 
back to work it doesn't increase the overall tax rate of the 
family.
    Representative Brady. Right.
    Ms. Furchtgott-Roth. And what we are doing with these 
proposals is making the tax rates steeper rather than flat.
    Representative Brady. Right.
    Thank you, Madam Chairman.
    Chair Maloney. Thank you. Mr. Cummings for 5 minutes.
    Representative Cummings. Thank you very much. Dr. Albelda, 
you wrote that research clearly demonstrates a mother's wage 
penalty. Are there such penalties against fathers, particularly 
single parent fathers?
    Ms. Albelda. No. Actually, as Mrs. Maloney, the Chairman 
Maloney indicated, typically fathers tend to earn more than men 
who aren't fathers. There is not a whole lot of research on the 
earnings of single fathers because there aren't very many of 
them, although it is growing. They do on average tend to earn 
less than married men who have children. So there does seem to 
be a small penalty, but not quite as big as mothers' penalty.
    Representative Cummings. Ms. Maatz, we know that the 
average woman earns $0.78 for every dollar earned by her male 
counterpart, but the gap is even more alarming for minority 
women. For example, in your testimony you noted that African 
American women working full-time year round earn $0.62 for 
every dollar earned by white men employed full-time year round. 
The problem is even more severe for Latinas, who earn just more 
than $0.58 compared to wages earned by white men. Why do you 
suppose this is? And why do you think we have this gender gap? 
And why is it so severe, you think, for minorities? And what do 
you suggest we do to try to close it?
    Ms. Maatz. Well, I think there are a variety of reasons for 
it. I think obviously we still have an education gap in terms 
of getting more people to school. Even though we know that 
education doesn't solve the pay gap completely for women, we do 
know that it does increase their pay enormously. I do think 
that women of color are still caught in a classic double bind, 
and that those issues play a role. And I think that there are a 
variety of different factors that come into play that are so 
difficult, especially in these economic times. We know that 
there are a variety of articles that have been written about 
how women of color have been especially hard hit in this 
recession, and that these are issues that we have to try and 
face if we can.
    I would like to follow up particularly on something that 
Ms. Furchtgott-Roth has said about the tax structure. You know, 
we are talking about families and trying to flatten the tax 
structure for two-earner families. And you know, most of the 
families in this country don't make $250,000. So we are trying 
to flatten the tax structure for a very small amount of people 
that we are talking about here.
    So I think that is critical. You know, it is a very small 
amount of people that she is talking about. And I think that 
when we are talking about pay equity and we are talking about 
people bringing home a fair amount, most working families can't 
even dream about that number. We are talking about people who 
are making very small--much smaller amounts of money. And 
especially when we are talking about women of color, it is a 
much tougher issue because of the numbers that you just quoted.
    And so this is about making ends meet. This is kitchen 
table economics. This is about being able to put food on the 
table and being able to pay the electric bill and am I going to 
be able to make rent this month. This is not about the 
luxuries. This is about actually being able to make my bills 
day to day.
    Representative Cummings. I often tell folks that people in 
my district, they are not trying to get a steak, they are just 
trying to get a hamburger.
    Ms. Maatz. I think that is true. I think that is true. And 
I think there is a lot of job segregation that goes on as well. 
My colleague Dr. Albelda talked about that as well. And women 
are still put into, in many respects, very clearly into what we 
call the pink collar jobs. And it was interesting when Mr. 
Sherrill talked about the fact that one of the reasons why we 
saw the wage gap shrink in the Federal Government was because 
we saw that more men were going into the clerical jobs. It was 
clear evidence that job segregation is one of the reasons why 
we have a pay gap. So discrimination is absolutely part of the 
pay gap, but job segregation is absolutely part of it as well. 
And women of color certainly I think suffer from job 
segregation even more so than white women.
    When you look at the STEM fields, for instance, the science 
fields, trying to talk about getting minorities into the 
science fields, which are high wage fields that we need to be 
competitive, and that is not just for women, that is for men of 
color, too, that is a huge issue. And so it is much more 
complex.
    Representative Cummings. Thank you very much. I see my time 
is up. Thank you.
    Chair Maloney. The Chair recognizes Mr. Hinchey, and 
comments that he has an important bill on the floor today on 
the Binghamton disaster. And I just wanted to congratulate your 
work in helping the families and helping New Yorkers recover 
from that disaster. And the Chair recognizes him for 5 minutes.
    Representative Hinchey. Thank you very much, Madam 
Chairman. I appreciate very much your having this hearing. This 
is an important subject. Is that on now?
    Representative Cummings. Yes.
    Representative Hinchey. Sorry for the delay. I was just 
saying I very much appreciate your bringing about this hearing. 
And I think this is a subject that really needs to be dealt 
with.
    As Mr. Cummings was asking you, the difference is pretty 
dramatic between men and women. The number we have is $0.78 on 
the dollar for every woman rather than a dollar, but it drops 
down depending upon the minority. And I think that that is a 
very important aspect of this, too, that really needs to be 
dealt with.
    One of the things that you were talking about, Ms. Maatz, 
is the failure of education, really, to generate an equity in 
the outcome of the pay that people get. And regardless of what 
that might be, whether it is engineering and mathematics or 
whether it is health and things of that nature, or even 
something like biology, even in biology women get on average 
$0.75 for the dollar.
    So I am just wondering why do you think the gender pay gap 
persists even among college graduates? What is it that we 
should be focusing on to try to deal with that aspect of this 
situation? Doesn't education make a difference? Shouldn't it 
make a difference?
    Ms. Maatz. Education absolutely makes a difference. I mean 
it is the bedrock towards a more economically secure future. So 
I don't want anyone to think that you should not be getting an 
education, and that we don't need to do work to not only close 
the achievement gap, but to do work to continue to open doors 
for women in nontraditional fields. But the reality exists that 
it is not the panacea that the founders of AAUW thought it was 
going to be back in 1881. They thought that if you got an 
education it was going to take care of everything.
    The reality is that once women get out into the workforce, 
there are other forces at work, and all kinds of different 
things come into play. And some of it is this job segregation 
that we have been talking about.
    So you can get a biology degree, but if you become a 
biology teacher versus going into a science field with biology, 
that can play a role. That, though, becomes in many respects a 
sociocultural question in terms of why we value hard scientists 
over biology teachers. Right?
    So I think in some respects we have some real questions to 
ask. It is not, when we look at job segregation issues, which 
are absolutely a part of why we have a pay equity question, it 
is not that we don't want to have, necessarily, job 
segregation. It is not that we don't want women to be nurses. 
It is not that we don't want women to be teachers. But we need 
to think about why do we devalue jobs that are specifically or 
in some ways that we see inherently as feminine jobs. We need 
nurses. We have got the baby boomers aging at a rapid rate. We 
need teachers. We need really good teachers. But why aren't we 
actually paying them what they are worth and doing what we need 
to do to improve the education system?
    So there are those questions as well. But I also think that 
there is a discrimination component. When you look at actual 
fields where there shouldn't be a job segregation issue, where 
it seems more of a mixed gender field and you still see 
differences, well, then you've got to start scratching your 
head, and reasonable people say, you know what, there is some 
bias going on here. And that is where laws come into play.
    That is why we want to pass the Paycheck Fairness Act. And 
I thank the House for passing it with such a strong bipartisan 
vote. But I've got to tell you the Senate has got to get on the 
stick, and they have got to pass it too, because we need to get 
this moving and get this done.
    The administration needs the tools to move it forward. That 
law has not been touched for 45 years, and it has got loopholes 
you could drive a Mack truck through.
    Representative Hinchey. Yeah. Anybody else? The situation 
with regard to public employees also is something that needs 
attention. I mean I had the sense generally that there was a 
greater equity with regard to Federal employees than there was 
out in the private sector. But there seems to be nevertheless 
some inequity in the public workforce as well.
    Anyone want to comment on that? Dr. Albelda.
    Ms. Albelda. There is more equity. The total pay gap in the 
Federal workforce is much smaller than it is in the workforce 
as a whole. So I think the lesson is actually that when you 
have good employment practices, as the Federal Government does, 
largely in response to anti-discrimination laws that were 
passed in the nineteen fifties, sixties and seventies, that you 
actually can reduce the pay gap. So that I mean I think--I take 
an opposite lesson, that even though it still exists, good 
employers, employers that have transparent rules that follow 
anti-discrimination laws, that pay attention to this can 
actually reduce the pay gap substantially. So I would applaud 
Federal--and in fact many women choose to go into government 
employment. A lot of professional women, particularly African 
American professional women, find themselves in public 
employment largely because they are good employers.
    So I think good employers, as you said, will attract good 
workers, but certain places make it more conducive. So I would 
applaud the government for their anti-discrimination efforts. 
And there is still some ways to go, but that reduction is much 
higher than what we have seen for all other workers.
    Representative Hinchey. Madam Chairman, if I could just 
make a comment about this.
    Chair Maloney. Absolutely.
    Representative Hinchey. I think that the point that you 
made is very, very good. One of the things that we are 
struggling with right now is an initiative that was taken by 
the previous administration, but unfortunately is still in 
play. And that is privatizing the workforce throughout much of 
the Federal Government, particularly with regard to work in the 
education academies, whether it is the Army, the Navy, the Air 
Force, all through that element. They are seeking, the previous 
administration was seeking, and is continuing, to change that 
process. That is something that we really need to deal with. Do 
you think that is----
    Ms. Albelda. I think it is true in State and local 
government as well as they privatize more. I mean I think 
private employers can be good employers, but they have to have 
the rules in front of them, and the rules have to be enforced. 
And you make the rules. So I think that they need the rules to 
be good employers.
    Representative Hinchey. Thank you very much. Thank you, 
Madam Chairman.
    Chair Maloney. I would like to ask all the panelists to 
comment on why is it so hard to change the pay gap? If you look 
at the other GAO report that they did on 20 years of pay, they 
saw a consistent 20 percent gap between men and women's pay 
after you brought in all the reasons for this. There was this 
consistent 20 percent. It hadn't budged an inch.
    And also the other GAO report that I was involved in showed 
that men and women had entered the workforce at the same level 
because of the women's movement, the labor movement, but 5 
years out, when you went into supervisory positions, management 
positions, the pay gap actually grew substantially, some cases 
18 percent. So women were losing ground except in the areas 
that Ms. Maatz points out that are female dominated, health 
care, care giving, education.
    Chair Maloney. So the main question I would like to ask all 
of the panelists: Why is it so difficult to chip away at the 
pay gap? We really haven't made success of it since the 1980s, 
and we haven't gained any ground since the 1980s.
    And I would like to ask Ms. Roth to also comment, after the 
pay gap deal, or get in writing to the committee, how many 
women are affected by this tax structure.
    And I must say that I do know some couples who get a 
divorce to get equal treatment in the tax structure. I know 
some couples who did a study that showed their taxes would go 
up, so they are living in sin or, rather, they are living 
together--not to make a judgmental deal on it--because of the 
tax structure. Now, in a country that promotes marriage, this 
seems somewhat unfair.
    And I will say that I think there is tremendous 
discrimination against women everywhere. That is why I wrote a 
book about it, Rumors of Our Progress are Greatly Exaggerated. 
And in the tax policy, to encourage a woman not to work is very 
discriminatory. Because many women are divorced, and then they 
give up their careers, and they are part of the numbers of 
women in poverty.
    The largest determination or factor to determine who is 
going to be in poverty in old age is being a woman with a 
child. I think that is a devastating statistic, again, from 
GAO, that our policies are really not supportive of women with 
children.
    And from my own personal experience, I will share with you, 
when I became a mother, my husband came to me with charts 
showing that we were losing money if I worked; that with the 
cost of child care, the change in tax structure, our family 
lost money because I was working, and that I should drop out of 
the workforce. I am very pleased that I did not drop out, but 
many of my middle-class families and friends did drop out of 
the workforce and, I would say, very much to their detriment.
    And on a philosophical--since we have two philosophers on 
the panel today--we cannot afford not to have the best and the 
brightest competing in this new world economy, and we need our 
women and minorities to have all the educational opportunities 
in order to compete in the world economy. Otherwise, we are 
hurting ourselves as a Nation.
    So the numbers that you show to discourage possibly the 
second worker, male or female, is not a policy that we want to 
continue in our government. Possibly a fairer way to approach 
it is to have each person who is paying taxes be taxed 
separately or individually so that this does not happen. And 
your comments on it.
    But my question to the panelists, first of all, is, why is 
it so difficult to bring equity into the workforce, and why 
have we not changed our numbers really since the 1980s in pay 
discrimination? The Federal Government has done better, as we 
see in this, but roughly it has been 78 cents persistent or 80 
cents to the dollar or 78 cents to the dollar persistent for 20 
years, depending on which study. That has been harder to change 
than any social policy that I am aware of. It has just been 
unbelievable that it has just been so consistent. And, in some 
cases, when you reach for the promotions, the level has dropped 
dramatically and painfully for many women in the workforce.
    And so any comments from any of the panelists?
    Ms. Furchtgott-Roth. Well, it has improved when you take 
into account all the different factors such as education. Then 
you can see that the wage gap has in fact narrowed. But in 
order to eliminate it completely, first of all, you would have 
to mandate that everyone studies the same thing in school, so 
that 50 percent of physics majors would be men, 50 percent 
women.
    Chair Maloney. Ms. Roth, I dispute that. We now have more 
women in law schools than men. We have more women in medical 
schools than men. And women are highly educated.
    The point that Ms. Maatz made is that we have become highly 
educated and we have moved forward with great education, but it 
hasn't been translated in pay equity. And the report I cite is 
the GAO report, the nonpartisan, bipartisan GAO report that 
showed a consistent 20 percent gap or more between men and 
women for 20 years. This was 5 years ago, this report. I would 
like to see it again and see, maybe we have made some gains. 
But most reports show that we have not and that it is 
persistent and it is strong and that it is unexplainable.
    Ms. Furchtgott-Roth. With the utmost respect to my co-
panelist, I was talking about science. And certainly in the 
STEM (Science, Technology, Engineering, Mathematics) areas 
there are fewer women than men in terms of majors in college.
    But to get to the next point, you would also have to 
mandate that people work the same amount of hours and have the 
same amount of productivity. And data show that when women have 
children they tend to cut back on the time and the hours that 
they work and they choose jobs that enable them to be back at a 
reasonable time.
    Chair Maloney. That is an important point. But, Dr. 
Sherrill, didn't your report factor in these considerations of 
leave for the birth of a child, leave for taking care of a 
parent? Didn't they factor in, in your report?
    Mr. Sherrill. That is right. That report we did was on the 
general workforce over almost a 20-year period. And, as you 
said, the raw pay gap was about 45 cents or so. Once we 
accounted for a range of factors, it was still about 20 cents 
on the dollar unexplained here.
    Chair Maloney. Which excluded the points you made, Ms. 
Roth, of taking time out and not working as long. Once you took 
out all these factors, there was still the pay differential.
    Ms. Furchtgott-Roth. The amount of time was not a variable. 
It was whether they took time off but not the extent of time. 
If they took 1 week off or 6 months off, that wasn't 
distinguished. Right, Dr. Sherrill? Because you didn't have the 
amount of time. It says so in your report.
    Mr. Sherrill. I think we are talking about two different 
reports. On this one on the Federal workforce, we did not have 
the amount of time that women had the unpaid leave. On the one 
we did in 2003, I believe that we did.
    Chair Maloney. And, Dr. Albelda, since you have written 
several books on it, could you jump in on this?
    Ms. Albelda. Well, I would suggest and think a little bit 
bigger about the kind of jobs we have at the United States. I 
think at the high end, the professional jobs that about maybe 
one-third of the labor force is in, those jobs are what I have 
called jobs with wives. Those are jobs which require workers to 
work a lot of time and have a very hard time balancing work-
family responsibilities. So the jobs themselves have been 
structured for centuries, actually, now to accommodate a worker 
that is not encumbered by any care-giving responsibilities, 
making it very difficult for women to do those jobs. And where 
you see professional women go is they go to the workplaces that 
know how to work with professional women, like teachers or 
hospitals or the public sectors. So these sectors----
    Chair Maloney. Or small businesses.
    Ms. Albelda. So they can have the flexibility. At the low 
end, those are what I call jobs for wives. Those are the jobs 
that tend to be low wage. The employer and employee don't have 
very much long-term relationships and stability. They don't 
have benefits. They often are--you can work part time or not. 
But that is part of the pay gap, is a lot of women are funneled 
into low-wage jobs. And only one-third of women in the United 
States have a bachelor's degree. So two-thirds of all women in 
the United States don't have a bachelor's degree. So higher ed 
helps, and I teach women I want them to get their degrees and 
move on.
    So I think there are two different things going on, but I 
think they all stem from the same thing, which is that we have 
workplaces that are not built for equity in the sense that the 
high-paying jobs assume you don't have family responsibilities 
and the low-paying jobs do. So we need to rethink who gets what 
benefits, how we structure jobs, what is overtime, and what 
does work flexibility mean for all workers, not just at the top 
or even at the bottom.
    Ms. Maatz. And the other piece of this I would say, too, in 
AAUW's research, we actually found that motherhood was not the 
driving factor behind the wage gap among working women 10 years 
out of graduation. In fact, what we actually found was that 
mothers who were in the workforce full time did not earn less 
than other women who were working full time, controlling for 
other factors such as occupation and majors.
    Chair Maloney. But the comparison is not with other women; 
it is with men.
    Ms. Maatz. I know. But what I am trying to say there and 
what my learned counterpart here is trying to say is that women 
who have kids take extra time off or work less hours than other 
people because they have kids. Well, they certainly didn't do 
that less than any other women. So then when we are comparing 
them to men, obviously then that is a reasonable conclusion.
    So in this particular instance, what we are finding is that 
over the years women have found all kinds of ways to balance 
motherhood and work; and it has worked really well.
    But, Congresswoman, I really want to get to your point 
about reasons for why we can't get past the pay gap, because I 
think that is a great question.
    Chair Maloney. I am way over time, and I have to be very 
respectful to my colleague. So I would like to yield him such 
time as I took for his questioning, and then when I come back I 
will ask you that question. Because I would like to hear what 
you have to say. But we have to be balanced in this discussion.
    So I recognize my colleague for such time as he may 
consume.
    Representative Brady. I will be brief.
    There is no question that, until we get to no pay gap, 
period, we have not reached our goals as a country in fairness, 
in equity. But I dispute the thought that we are not making 
progress on this issue. I think clearly we are.
    And progress on that chart in the Federal Government--
again, I understand that 93 cents for every male dollar isn't 
satisfactory, but we are making significant progress. Even the 
Bureau of Labor Statistics does that in its overall study, 
which is sort of misleading. Basically, it is equivalent of if 
we take every man's salary in this room versus every woman's 
salary in this room, there will be a pay gap. Well, clearly, 
you are comparing apples to oranges. When you do get closer to 
it, you see, like in the government study, we are starting to 
whittle down that pay gap. Which is good, but it won't be good 
enough until we get to zero.
    I think we are getting better at studying the reasons why, 
which is giving us more clues as to what we need to do to 
eliminate it completely.
    In your statement, Dr. June O'Neill from American Economic 
Review did a wage study ratio between men and women. Ms. 
Furchtgott-Roth, can you talk a little about that?
    Ms. Furchtgott-Roth. Yes. She compared men and women 
making--with the same jobs. She took into account time out of 
the workforce, used in a host of studies. She put in an 
aptitude test, the Armed Forces aptitude test. And the more 
things she added, the smaller the pay gap became; and she got a 
number of about 95 to 97 percent.
    And most studies, with respect to my honored colleague over 
here, do show that the more children there are, the larger the 
wage gap because of the time out of the workforce.
    Jane Waldfogel of New York University has written articles 
showing how increased numbers of children do tend to make the 
pay gap widen. And that is why some people call for paid family 
leave as a remedy to the pay gap. And I believe that was 
mentioned. Their view is that children do have an effect. But 
when you take into account these different things, you do find 
that men and women are paid the same.
    Now, the Behind the Pay Gap (AAUW) study does show that 
there is no effect of numbers of children on women's pay. But 
that is basically outside the general academic literature.
    Representative Brady. The reason I ask you about it is I 
also dispute the thought that the government is the only place 
where discrimination no longer exists. Because I think in the 
private sector again you are seeing market forces reward that 
type of entrepreneurial professional degree that we are 
encouraging more women to pursue.
    You mentioned another study, Professors Bertrand and 
Hallock, that dealt with male and female executives, another 
issue, has encouraged more and more people stepping into the 
boardroom and running their own companies. What did that study 
show?
    Ms. Furchtgott-Roth. That showed that when you take into 
account the different factors, male and female executives at 
top corporations are paid about the same. So the closer you 
compare, the closer the pay gap comes. Such as Congressmen and 
Congresswomen are paid the same. Male and female Senators are 
paid the same. They have the same jobs. But when you take these 
large averages, that is when you start getting these large pay 
gaps.
    And this Behind the Pay Gap study shows occupations. It 
doesn't show specific jobs, a specific cashier with one year's 
experience versus another specific cashier with another year's 
experience. And the only way to make the pay gap completely 
disappear is to mandate that everyone is paid the same. The 
Soviet Union attempted that, and the Soviet Union crumbled.
    Representative Brady. I don't think we are there in the 
private sector yet, where discrimination doesn't exist and pay 
equity is perfect. It is not. I just think we are making 
progress. And I do agree with the chairman that a Tax Code that 
punishes people for seeking those professional degrees, 
punishes people where two workers go back to work is a poor Tax 
Code and making it even more so I think is really damaging to 
working women. It is one of those issues that maybe we can find 
common ground as we go forward in this committee.
    Again, Madam Chairman, thank you for leading this 
discussion today. I think it is important every year that we 
measure our progress on this issue and look for ways to improve 
even more.
    Chair Maloney. I appreciate the gentleman's comments.
    And maybe, Dr. Sherrill, it is time to update a new look at 
the glass ceiling--we haven't had that report in 5 years--and 
incorporate some of the points that Mrs. Roth has brought up 
and Ms. Maatz and take another look at it.
    Quite frankly, I found that report astonishing, that there 
was a 45 percent gap between men and women. And, obviously, if 
you are in a profession where it is mandated by law, men and 
women are paid the same in my profession, a Member of Congress, 
but in most offices they are not. And most offices, it is a 
very deep and strong bias against them.
    In fact, I just saw the play Nine to Five, which was around 
in 1980; and it is still very relevant. In the play, a woman is 
fired for asking an employee what she is paid. She is fired.
    And the work/family balance support which Dr. Albelda and 
Ms. Maatz mentioned, such as paid family leave, flex time, the 
right to deduct the cost of child care, and the vital fact that 
most women work because they have to, it is not a choice. It is 
not a luxury. It is a necessity to provide the income for the 
families.
    But possibly you would join me in a request to Dr. Sherrill 
for another GAO report that looks at 25 years of pay and see if 
we have made any success in that range.
    But, truly, the most fascinating one you did, Dr. Sherrill, 
was the look at those that have moved into management where, in 
some cases, we were losing ground. Even in times of great 
prosperity, we didn't share the wealth; we grew the disparity 
between men and women in pay. And it might be interesting to go 
back and look at that, and particularly during an economic 
downturn, how women are faring in the workforce.
    But, Ms. Maatz, I would now call upon you to continue with 
your statement. And anyone else who would like to make a 
statement, I look forward to your comments.
    I think that we are making progress in the public sector, 
which is the model, but the reports that I have read--and I 
look forward to reading the reports that you mentioned, Ms. 
Furchtgott-Roth, as I am sure other panelists do. But those 
that I have read, the scientific reports that are separate from 
Congress still show a deep and strong, persistent wage 
discrimination which is terribly unfair and one that we need to 
address in every way we can. Ms. Maatz.
    Ms. Maatz. Thank you. And you will be pleased that my 
reasons or solutions don't include kidnapping my boss like Nine 
to Five. We try to avoid that particular one.
    The first one that I would get to is that, actually, since 
1980, we have not had a major law passed in terms of pay 
equity. Now, I know you are probably thinking to yourselves 
``Ledbetter''. And Ledbetter certainly was a critical law when 
it came to pay equity and court access, and it was critical in 
terms of court access to combat wage discrimination. But when 
it actually came to being able to fight the root causes of why 
pay equity exists, that was not the bill that did it. That was 
literally just a bill that got women in the courthouse doors. 
So I put that caveat there, and I think that is critical to 
note.
    The other one is job segregation that I mentioned earlier. 
Job segregation continues to exist. It is the product of all 
kinds of reasons: bias in terms of school counseling. Certainly 
there is personal choice there. I talked earlier it is not that 
we want to discourage people from being teachers or nurses or 
whatever, secretaries, cosmetologists, but we need to look at 
how we pay those kinds of jobs and how the market works with 
that. There is a great study up in Long Island where they paid 
their groundskeepers more than they paid their first-year 
teachers. Clearly, that is an issue in terms of what we value 
and what we don't in male professions and female professions.
    I think that there is absolutely, now that we have so many 
more women in the workplace and there is an acknowledgement 
that for a thriving economy that innovates, that is preparing 
and working to meet the demands of a 21st century competitive 
global marketplace, that we need women's work and we need 
women's labor. There is no getting around that.
    At the same time, I think there is a lot more maternal 
profiling that goes on because there are assumptions that are 
made about women who have kids or women who might have kids. So 
I think that that is absolutely a reason why the pay gap sticks 
around.
    And the fourth one that I would say is that I think that 
the government needs to play a stronger role both in terms--not 
only in terms of the legislation that I mentioned right away, 
right off the bat, but in terms of the executive branch and 
data collection and oversight programs.
    One of the things that Mr. Sherrill mentioned in his 
testimony or in one of his questions was some recommendations 
that they had made; and one of the thoughts that I had right 
off the bat was a whole survey--equal opportunity survey that 
was discontinued under the prior administration and under the 
Paycheck Fairness Act.
    Chair Maloney. Where was that study?
    Ms. Maatz. Well, the equal employment survey was a survey 
that was developed under three different administrations in a 
bipartisan fashion.
    Chair Maloney. Was it in the Census Department? Where was 
the study?
    Ms. Maatz. It was under the Office of Federal Contracts 
Compliance programs, and it was a way to find out information 
about wages and hours and so on and so forth. But it was a way 
to target wage enforcement issues.
    And think about how great it would be if that particular 
survey were actually in place now with all of this stimulus 
money going out the door to make sure that the Federal 
Government, as the largest contractor, think about how much 
money we spend as the Federal Government, to make sure that we 
are actually spending it with contractors who are following 
civil rights laws. And that survey was discontinued in 2006.
    So under the Paycheck Fairness Act, that survey would 
actually be put back in place. But the administration can do 
that without that legislation. They don't need a body or leave 
of the legislation to be able to do that. And there are all 
kinds of other data collection processes that they can put in 
place with the employers to make sure that we are following 
wage and hour laws and doing the kinds of things that we need 
to do to follow civil rights laws.
    So a lot of this has to do with accountability. If you are 
not holding people accountable, then you are not going to see 
results. It is as simple as that.
    Chair Maloney. Thank you for your impassioned statement.
    And when we did pass the Federal Employees Paid Parental 
Leave Act and the Lilly Ledbetter Fair Pay Act, my office went 
back and tried to find the last bill that we passed to help 
families balance work and family and to advance equality of 
rights for women. And you are absolutely right, Ms. Maatz. It 
went back to 1993, the passage of the Family and Medical Leave 
Act. We had not taken any other substantive action.
    I would like Dr. Albelda and Dr. Sherrill and Ms. Roth, if 
you would like to comment. And, my colleague, I don't know if 
you want another round of questions or not. If you would like 
to comment, then we will conclude the hearing on anything you 
would like to--statements you would like to make.
    Dr. Sherrill.
    Mr. Sherrill. Just piggybacking on the last point Ms. Maatz 
talked about in terms of additional data collection.
    In our prior study on the Department of Labor and the Equal 
Employment Opportunity Commission, we found that some of the 
data they are already collecting could be better mined to help 
them do their job better. In addition, Equal Employment 
Opportunity Commission investigators told us that they would 
like to have access to some of the enforcement data from the 
Department of Labor. So there may also be issues of sharing of 
data across these agencies, in addition to the possibility of 
collecting additional data.
    Chair Maloney. That sounds like a good hearing to hold. Dr. 
Albelda.
    Ms. Albelda. I would like to just address the apples and 
apples and then the apples and oranges.
    Even when we compare apples to apples we find some pay gap, 
and that pay gap is probably due to some form of 
discrimination. Because we have adjusted for absolutely 
everything else there is.
    The problem is that women and men are apples and oranges in 
terms of the labor market and jobs that they get. So I think we 
need to address the similarities where they are the same, as 
executives or faculty or whatever they are and still earn less, 
but we also have to address why there are differences. Some of 
those have to do with the occupation, but some exactly has to 
do with how we value women's work. As I said, this care sector, 
which is a growing sector, it is part of our human 
infrastructure. We don't value care work, whether it is paid or 
unpaid at home.
    So I think all--and my last comment has to do with the tax. 
I have been studying this stuff for almost 30 years. And in all 
the studies I have ever looked at, nobody--very rarely is there 
any mention of marginal tax rates as what keeps women and men 
pay unequal. But what is often mentioned is the cost of child 
care and the cost of--where that costs women to go to work. So 
I think some of that has to do with addressing some of those 
issues as much as we address the high marginal tax rate.
    And it is low-income women who don't marry. High-income 
women know that, even though there is a penalty to marriage, 
they are better off when they retire if they stay married even 
if they don't like the marginal tax rate. It is low-income men 
and women that don't marry who have very high marginal tax 
rates when you take into effect they lose food stamps for every 
additional dollar they earn or they may lose the earned income 
tax credit.
    So I think if we want to think about marginal tax rates and 
how that affects low-income women in particular, I think we 
need to think about those issues around what we support 
earnings with, as well as the choices that they are able to 
make, provided if there is quality child care available, et 
cetera.
    So the apples and oranges question, I think we have made 
incredible progress on the apples and apples. It is the apples 
and oranges that we haven't. And I think we need to be vigilant 
about how we value women's work, whether it is inside the home 
or outside the home.
    Chair Maloney. Thank you. You have really given me a great 
deal to think about.
    Ms. Roth and then Ms. Maatz.
    Ms. Furchtgott-Roth. Thanks for your request about the 
numbers of women affected by the tax rates. I will certainly 
try to provide you with the data that exists.
    We also need to be aware, though, that there are numbers of 
women who do not work because of the taxes, the contemporaries 
you talked about whose husband won over and said don't work, 
and then they didn't work. So we have numbers of people who are 
not in the workforce because of the tax situation. And Dr. 
Albelda is right, it is at the low-income as well as the high-
income levels those marginal tax rates discourage people from 
working.
    There have been a number of suggestions, to move on to a 
slightly other topic, about the data collection. And we also 
need to be aware that if we are requiring employers to provide 
more data as to the wages that they pay and to justify those, 
that is also going to discourage them hiring certain type of 
workers. So say one person they think doesn't have enough 
experience would only get hired at a different kind of wage. 
The requirement that they have to provide a lot of data on 
gender, on jobs, on pay is likely to discourage employers, 
especially small businesses, from hiring women because they 
don't want to be accused of discrimination. And we need to be 
very careful, especially in the recession, about imposing data 
collection burdens on employers, both large and small.
    Chair Maloney. I would like to invite all of the panelists 
to give to the committee any thoughts they may have on data 
collection and ways it should be handled. And I would like to 
give the last word to Ms. Maatz, who is never out of words.
    Ms. Maatz. I just want to thank the chairwoman for having 
this hearing and Congressman Brady for being here as well. I 
will be sure to tell our ladies back in Texas that you were 
here and how wonderful you were during the hearing. We have 
somebody in the office twittering this, so I am sure they 
probably already know about it, believe it or not.
    And, Congresswoman, thank you so much for all you have done 
in terms of this particular issue and your Federal Employment 
leave bill as well, as something AAUW strongly supports. You 
have been a wonderful fighter for women throughout your career, 
and it is my pleasure to have been here today. Thank you.
    Chair Maloney. Thank you all for your testimony and your 
very hard and substantial work.
    The meeting is adjourned.
    [Whereupon, at 10:35 a.m., the committee was adjourned.]
                       SUBMISSIONS FOR THE RECORD

     Prepared Statement of Representative Carolyn B. Maloney, Chair
    Good morning. I want to welcome our distinguished panel of 
witnesses and thank you all for your testimony today.
    This hearing is timely, because today is Equal Pay Day--the day 
that symbolizes how far into the year that the average full-time 
working woman must work to earn as much as her male counterpart earned 
the previous year. We have made a great deal of progress in closing the 
gap between men's and women's wages since President Kennedy signed the 
Equal Pay Act in 1963--but as the saying goes, women's work is never 
done.
    Women earn just 78 cents on the dollar as compared to men--for 
doing the same work. For minority women, the wage gap is even larger. 
African American women earn only 62 cents for every dollar earned by 
white men and Hispanic women fare worse at only 53 cents.
    The report released today by the GAO provides additional evidence 
of the persistence of the gender pay gap, but the workplace setting is 
particularly troubling. The federal government should be a model 
employer, but today's report tells us we have considerable work left to 
do to live up to that promise. The GAO finds that an 11 cent gap 
remains between men's and women's pay in the federal workforce, even 
after accounting for measurable differences like education, occupation, 
and work experience.
    The report also finds that the total pay gap shrank between 1988 
and 2007, from 72 cents on the dollar to 89 cents on the dollar. 
However, the share of the gap that can't be explained has remained 
remarkably constant, at 7 cents. Those 7 cents may be explained by 
discrimination against female federal employees.
    The pay gap in the federal workforce that GAO found reflects 
troubling pay disparity issues in the broader labor market.
    I am proud to have successfully fought for equal compensation after 
September 11th. The compensation plan for victims' families, as it was 
originally proposed, was based on outdated government formulas that 
assumed women victims would have worked for less of their lives than 
their male counterparts. In effect, the proposed system of compensation 
was providing less for the families of women victims simply because 
they were the families of women. It was a sobering reminder of how 
institutionalized gender discrimination can be, and that there are many 
battles yet to be won.
    Women are more productive and better educated than they've ever 
been, but their pay hasn't yet caught up. The pay gap affects women at 
all income levels and across a wide range of occupations, and it widens 
as women grow older.
    Equal pay is not just a women's issue, it's a family issue. The 
impact of the wage gap is particularly painful in our current economic 
downturn as families struggle to make ends meet in the face of stagnant 
wages and job losses.
    Estimates of how much women stand to lose over their lifetime due 
to unequal pay practices range from $700,000 for a high school graduate 
to $2 million for doctors and lawyers, according to the WAGE project. 
Every dollar counts, so now more than ever, families should not be 
shortchanged by gender pay differentials.
    Moreover, the GAO previously has found that women with children 
earn about 2.5 percent less than women without children, while men with 
children enjoy an earnings boost of 2.1 percent, compared to men 
without children. So fathers enjoy a bonus, while mothers pay a penalty 
for their decisions to have children.
    While some of the gender pay gap can be explained by differences in 
men's and women's occupations and leave patterns, study after study 
shows that a substantial portion of the gap remains unexplained. Women 
continue to bump up against everything from subtle biases to egregious 
acts of discrimination relating to gender stereotypes about hiring, pay 
raises, promotions, pregnancy and care-giving responsibilities.
    The Ledbetter bill was an important start, but additional 
legislation is necessary to close the loopholes in the Equal Pay Act 
that allow discrimination to persist. I am proud to be a co-sponsor of 
the Paycheck Fairness Act, which passed the House earlier this session 
and I hope that the Senate will take action soon.
    Better work-life balance policies would allow both mothers and 
fathers to continue to support their families and develop their 
careers. By ensuring that women aren't forced to start all over again 
in new jobs, paid leave policies can help keep women on an upward 
trajectory in their careers, protecting their earnings. The Federal 
Employees Paid Parental Leave Act, which I have sponsored, would do 
just that.
    By recognizing the persistence of the problem and taking action, we 
have the opportunity to make next year's Equal Pay Day a celebration of 
progress.
    I look forward to the testimony of our witnesses today.
                               __________
       Prepared Statement of Kevin Brady, Senior House Republican
    I am pleased to join in welcoming the panel of witnesses before the 
committee this morning. A key focus of this hearing is the new 
Government Accountability Office (GAO) report on women's pay in the 
federal workforce.
    According to the new GAO report, ``the difference between men's and 
women's average salaries . . . declined significantly in the federal 
workforce between 1988 and 2007.'' The study notes that the ``pay gap 
narrowed as men and women in the federal workforce increasingly shared 
similar characteristics in terms of the jobs they held, their 
educational attainment, and their levels of experience.''
    Between 1988 and 2007 the gap between men's and women's pay had 
declined from 28 cents on the dollar to 11 cents. GAO reports that 
about ``7 cents of the remaining gap might be explained by factors for 
which we lacked data or are difficult to measure, such as work 
experience outside the federal government.'' GAO was careful to state 
that its findings do not prove or disprove pay discrimination.
    The trends noted in the GAO report are similar to those observed in 
the overall economy in recent decades. The pay differential of men and 
women, once adjusted for occupation, education, experience, hours, and 
leave, has fallen over time. Although some differences remain, men and 
women with similar characteristics working in the same kinds of 
occupations have comparable pay.
    The progress women have made over the years is reflected in a 
number of ways. Between 1970 and 2007, the women's labor force 
participation rate increased from 43 percent to 59 percent. Women now 
receive a majority of undergraduate and graduate degrees. In 2007, 
women held over half the jobs in well-paid management and professional 
occupations.
    However, as Diana Furchtgott-Roth notes in her testimony this 
morning, higher marginal tax rates could effectively raise taxes on 
married women by increasing the marriage penalty for some two-earner 
couples. I'm also very concerned that given the grim fiscal outlook, 
the application of these higher tax rates will eventually be much 
broader than that proposed by the Administration. The emerging policy 
mix of much higher taxes and government spending, by undermining 
economic and employment growth, will harm both women and men in the 
workforce.
                               __________
        Prepared Statement of Representative Elijah E. Cummings
    Thank you, Madam Chair.
    You have been a tireless advocate for gender equality in the 
workforce, and especially today, on Equal Pay Day, it should not go 
unnoticed.
    I hope today's hearing helps shed light on the continuing practices 
that prevent full equality in the workplace, and I look forward to 
working with you to eliminate such wrongdoing.
    For the past three months, the Bureau of Labor Statistics has 
reported nearly 600,000 jobs lost each month.
    I suspect next Friday we will hear similarly staggering figures.
    With so many of our families led by a single female parent, I am 
deeply disappointed that our mothers and sisters have to face not only 
the rising tide of unemployment, but also what amounts to a ``gender 
tax.''
    As we have heard in the past, there is a component of the gap 
between wages of similarly-situated male and female employees which no 
variable can explain in detailed analyses--and which many attribute to 
discrimination.
    I am especially disheartened to see that the wage disparity widens 
in the cases of women with advanced degrees.
    After putting in the years and years of effort to earn such 
degrees, many women still earn a wage that is lower than equally-
educated male counterparts--which belittles the time and effort 
required to earn these credentials.
    Equally saddening are the statistics that show women who are also 
minorities face race discrimination on top of gender bias. The 
persistence of any element of unequal treatment that prevents any 
American from achieving the full measure of her potential, or enjoying 
the full benefits of the rights guaranteed by our Constitution is 
unacceptable.
    Now, importantly, we face a situation in which many assume that 
given the wide participation of women in the workplace, equality has 
been achieved.
    Frankly, on many fronts, many Americans assume that discrimination 
is a ``thing of the past.''
    Today's hearing is an important reminder that, sadly, we cannot 
limit our vigilance or expect that discrimination is always and only 
characterized by actions that are readily apparent.
    That is why we need to provide those who have been harmed with the 
requisite remedies, strengthen penalties for discrimination, and 
increase enforcement of these offenses.
    For that reason, I was extremely pleased to join so many of my 
colleagues in co-sponsoring the Lilly Ledbetter Fair Pay Act of 2009. 
This legislation is a perfect example of what can be achieved by the 
collaboration between President Obama and this Congress.
    The Fair Pay Act starts us down the road to the eventual 
elimination of the gender wage disparity, and the remedies provided in 
the bill are the first steps toward this goal.
    It is my sincere hope that the additional protections and remedies 
found in the Paycheck Fairness Act are also signed into law during this 
Congress.
    The witnesses before us today have written forcefully and 
articulately on the role of gender in the labor market.
    As a result, I look forward to a frank discussion about what can be 
done to address the harms done, and to prevent further harm moving 
forward. Thank you, I yield back.
[GRAPHIC] [TIFF OMITTED] 52911.001

[GRAPHIC] [TIFF OMITTED] 52911.002

[GRAPHIC] [TIFF OMITTED] 52911.003

[GRAPHIC] [TIFF OMITTED] 52911.004

[GRAPHIC] [TIFF OMITTED] 52911.005

[GRAPHIC] [TIFF OMITTED] 52911.006

[GRAPHIC] [TIFF OMITTED] 52911.007

[GRAPHIC] [TIFF OMITTED] 52911.008

[GRAPHIC] [TIFF OMITTED] 52911.009

[GRAPHIC] [TIFF OMITTED] 52911.010

[GRAPHIC] [TIFF OMITTED] 52911.011

[GRAPHIC] [TIFF OMITTED] 52911.012

[GRAPHIC] [TIFF OMITTED] 52911.013

[GRAPHIC] [TIFF OMITTED] 52911.014

[GRAPHIC] [TIFF OMITTED] 52911.015

[GRAPHIC] [TIFF OMITTED] 52911.016

[GRAPHIC] [TIFF OMITTED] 52911.017

[GRAPHIC] [TIFF OMITTED] 52911.018

[GRAPHIC] [TIFF OMITTED] 52911.019

                  Prepared Statement of Lisa M. Maatz
    Chairwoman Maloney and members of the Committee, thank you for the 
opportunity to testify today on the critical issue of pay equity.
    I am the Director of Public Policy and Government Relations at the 
American Association of University Women. Founded in 1881, AAUW has 
approximately 100,000 members and 1300 branches nationwide. AAUW has a 
proud 127-year history of breaking through barriers for women and 
girls, releasing its first report on pay equity in 1913. Today, AAUW 
continues its mission through education, research, and advocacy.
    I am particularly pleased to be here to talk about pay equity, not 
simply because today is Equal Pay Day, but also because AAUW believes 
it's critical these tough economic times aren't used as an excuse to 
roll back the hard fought gains women have made. Instead, policy makers 
need to ensure that women workers--all workers--don't just survive the 
downturn but continue the march toward fair pay and workplace 
opportunity. Empowering women is one investment that always pays long-
term dividends, not only for the women themselves but their families 
and the entire nation as well.
    As the recession continues, women are increasingly becoming the 
sole breadwinners of their families--making pay equity not just a 
matter of fairness but the key to families making ends meet. The 
American Recovery and Reinvestment Act, signed into law in February, is 
intended to save or create 3.5 million jobs over the next two years. 
According to a White House report, an estimated 42 percent of the jobs 
created--nearly 1.5 million--are likely to go to women.\1\ The recovery 
package clearly is counting on women to play a leading role in the 
nation's economic recovery, and their ability to do so is strengthened 
considerably when women's paychecks are a fair reflection of their 
work. In fact, this is just one of the reasons why new legislation 
strengthening pay equity laws is not only necessary but timely, 
amounting to an ``equity'' economic stimulus.
---------------------------------------------------------------------------
    \1\ Jared Bernstein and Christina Romer. The Job Impact of the 
American Recovery and Reinvestment Act. Retrieved March 5, 2009, from 
http://otrans.3cdn.net/ee40602f9a7d8172b8_ozm6bt5oi.pdf.
---------------------------------------------------------------------------
    I am also pleased to share findings from AAUW's research report, 
Behind the Pay Gap. Our report provides reliable evidence that sex 
discrimination in the workplace continues to be a problem for women, 
including young college-educated women. I will also discuss pending 
legislation that we believe could make real progress in closing the pay 
gap between men and women, as well as how the wage gap generally 
affects women--especially mothers.
                         the wage gap persists
    According to the U.S. Census Bureau and Bureau of Labor Statistics, 
women who work full time earn about 78 cents for every dollar men 
earn.\2\ Because of the wage gap, since 1960, the real median earnings 
of women have fallen short by more than half a million dollars compared 
to men.\3\ Minority women face a larger wage gap. Compared to white 
men, African American women make 67 cents on the dollar (African 
American men make 78 cents); Hispanic women make about 58 cents 
(Hispanic men make almost 66 cents).\4\
---------------------------------------------------------------------------
    \2\ U.S. Census Bureau and the Bureau of Labor Statistics. (August 
2008). Annual Demographic Survey. Retrieved December 11, 2008, from 
http://pubdb3.census.gov/macro/032008/perinc/new05_000.htm.
    \3\ National Committee on Pay Equity. (September 2007). The Wage 
Gap Over Time: In Real Dollars, Women See a Continuing Gap. Retrieved 
December 11, 2008, from http://www.pay-equity.org/info-time.html.
    \4\ U.S. Census Bureau and the Bureau of Labor Statistics. (August 
2008). Annual Demographic Survey. Retrieved December 11, 2008, from 
http://pubdb3.census.gov/macro/032008/perinc/new05_000.htm.
---------------------------------------------------------------------------
    In addition, wage discrimination lowers total lifetime earnings, 
thereby reducing women's benefits from Social Security and pension 
plans and inhibiting their ability to save not only for retirement but 
for other lifetime goals such as buying a home and paying for a college 
education. New research calculates that the pay inequity shortfall in 
women's earnings is about $210,000 over a 35-year working life.\5\
---------------------------------------------------------------------------
    \5\ Institute for Women's Policy Research. (July 2008). Improving 
Pay Equity Would Mean Great Gains for Women. Retrieved December 11, 
2008 from http://www.iwpr.org/pdf/payequityrelease.pdf.
---------------------------------------------------------------------------
                        origins of the wage gap
    One partial explanation for the wage gap is occupational 
segregation. According to AAUW research, women are still pigeonholed in 
``pink-collar'' jobs that tend to depress their wages. AAUW's 2003 
report, Women at Work, found that women are still concentrated in 
traditionally female-dominated professions, especially the health and 
education industries. The highest proportion of women with a college 
education work in traditionally female occupations: primary and 
secondary school teachers (8.7 percent) and registered nurses (6.9 
percent).\6\
---------------------------------------------------------------------------
    \6\ AAUW Educational Foundation. (March 2003). Women at Work. 
Washington, DC.
---------------------------------------------------------------------------
    A 12-state analysis based on data from the Department of Education 
found that women tend to be overwhelmingly clustered in low-wage, low-
skill fields. For example, women constitute 98 percent of students in 
the cosmetology industry, 87 percent in the child care industry, and 86 
percent in the health aide industry. In high-wage, high-skill fields, 
women fall well below the 25 percent threshold to qualify as a 
``nontraditional field.'' For example, women account for 10 percent in 
the construction and repair industry, 9 percent of students in the 
automotive industry, 6 percent in the electrician industry, and 6 
percent in the plumbing industry.\7\
---------------------------------------------------------------------------
    \7\ National Women's Law Center. (2005). Tools of the Trade: Using 
the Law to Address Sex Segregation in High School Career and Technical 
Education. Retrieved December 11, 2008, from http://www.nw1c.org/pdf/
NWLCToolsoftheTrade05.pdf.
---------------------------------------------------------------------------
    Women's achievements in higher education during the past three 
decades are considered to be partly responsible for narrowing the wage 
gap.\8\ But at every education level, women continue to earn less than 
similarly educated men. Educational gains have not yet translated into 
full equity for women in the workplace.
---------------------------------------------------------------------------
    \8\ See, for example, Blau, Francine and Lawrence Khan. The Gender 
Pay Gap: Going, Going . . . But not Gone. Paper presented at the 
Cornell University Inequality Symposium, October 2002.
---------------------------------------------------------------------------
                  the aauw report: behind the pay gap
    In our report, Behind the Pay Gap, AAUW found that just one year 
after college graduation, women earn only 80 percent of what their male 
counterparts earn. Even women who make the same choices as men in terms 
of major and occupation earn less than their male counterparts. Ten 
years after graduation, women fall further behind, earning only 69 
percent of what men earn. After controlling for factors known to affect 
earnings, a portion of these pay gaps remains unexplained and is likely 
due to discrimination.
    The study is based on nationally representative surveys conducted 
by the Department of Education. AAUW's research uses the Baccalaureate 
and Beyond Longitudinal Study, a nationally representative data set of 
college graduates produced by the Department of Education. This data 
set is unique because it is designed to follow bachelor's degree 
recipients as they navigate the workplace, graduate school and other 
life changes such as having a family. The research examines two sets of 
college graduates: men and women who graduated in 1999-2000, and men 
and women who graduated in 1992-93; we also limited our analysis to 
those who earned their first bachelor's degree at age 35 or younger.
    The 1999-2000 graduates were chosen because they were the most 
recent graduates interviewed in the year after graduation. By looking 
at earnings just one year out of college, we believe you have as level 
a playing field as possible. These employees don't have a lot of work 
experience and, for the most part, don't have caregiving obligations, 
so you'd expect there to be very little difference in the wages of men 
and women. The 1992-1993 graduates were chosen so that we could analyze 
earnings ten years after graduation.
    The pay gap can only be partially explained by differences in 
personal choices. Despite some gains, many majors remain strongly 
dominated by one gender. Female students are concentrated in majors 
that are associated with lower earnings, such as education, health, and 
psychology. Male students dominate the higher-paying majors: 
engineering, mathematics, physical sciences, and business. Both women 
and men who majored in ``male-dominated'' majors earn more than those 
who majored in ``female-dominated'' or ``mixed-gender'' majors.
    The choice of major is not the full story, however, as a pay gap 
between recently graduated women and men is found in nearly every field 
and in every occupation. Women full-time workers earn less than men 
full-time workers in nearly every major, although the size of the gap 
varies. In education, a female-dominated major and occupation, women 
earn 95 percent as much as their male colleagues earn. In biology, a 
mixed-gender field, women earn only 75 percent as much as men earn, 
just one year after graduation.
    The kinds of jobs that women and men accept also account for a 
portion of the pay gap. While the choice of major is related to 
occupation, the relationship is not strict. For example, some 
mathematics majors teach, while others work in business or computer 
science. It is important to bear in mind that such choices themselves 
can be constrained in part by biased assumptions regarding appropriate 
career paths for men and women. Other differences in type of jobs also 
affect earnings. For example, women are more likely than men to work in 
the nonprofit and public sectors, where wages are typically lower than 
in the for-profit sector.
    AAUW's analysis showed that men and women's different choices can 
explain only some of the pay gap. After controlling for factors like 
major, occupation, industry, sector, hours worked, workplace 
flexibility, experience, educational attainment, enrollment status, 
GPA, institution selectivity, age, race/ethnicity, region, marital 
status and children, a five percent difference in the earnings of male 
and female college graduates is unexplained. It is reasonable to assume 
that this difference is the product of discrimination.
    Discrimination is difficult to measure directly. It is illegal, and 
furthermore, most people don't recognize discriminatory behavior in 
themselves or others. This research asked a basic but important 
question: If a woman made the same choices as a man, would she earn the 
same pay? The answer is no.
    Ten years after graduation, the pay gap widens. AAUW's analysis 
found that, ten years after graduation, the pay gap widened--so much so 
that female full-time workers earned only 69 percent of what their male 
peers earned.
    Ten years out, the pay gap within occupations also increased. For 
example, in engineering and architecture, where wages were at parity 
one year out of college, we now see that women earn only 93 percent of 
what their male counterparts earn. In business and management, the pay 
gap widens, with women earning 69 percent of men's wages, compared to 
81 percent one year out. Strikingly, women did not make gains in any 
fields compared to their male counterparts.
    Similar to what we saw one year out of college, this pay gap can 
only partially be explained as a result of women's characteristics and 
choices. In terms of occupation, women and men remained segregated in 
the workforce over time, and the difference in earnings among 
occupations grew over this time period. Women also continued to be much 
more likely to work in the lower-paying non-profit sector. Among full-
time workers, women reported working fewer hours than men, and their 
employment and experience continuity also differed from men. These 
choices were associated with wage penalties.
    It is important to note that what we are calling women's 
``choices'' are often constrained and need to be looked at in context. 
When women earn less most couples are likely to prioritize the higher-
earning husband's well-being and career path in relation to child care, 
choice of residence, and other household decisions. When women are 
married, this trade-off may be worthwhile; however, nearly one half of 
women did not live with a husband in 2005.\9\ While most women marry at 
some point, most also spend a large part of their lives on their own. 
Women are also much more likely than men to be single parents.\10\ 
Therefore the presumption of the presence of a higher earning mate is 
often a false one. It is important for us to remember that lower pay 
for women means fewer resources for their children today and women's 
retirement tomorrow.
---------------------------------------------------------------------------
    \9\ AAUW Educational Foundation. (2007). Behind the Pay Gap, by 
Catherine Hill and Judy Goldberg Dey. Washington, DC.
    \10\ American Community Survey; http://factfinder.census.gov/
servlet/STTable?_bm=y&-geo_id=01000US&-qr_name=ACS_2005_EST_G00_S1101&-
ds_name=ACS_2005_EST_G00_
---------------------------------------------------------------------------
    Women are investing in higher education, but not receiving the same 
salaries as men. Choices made in college affect earnings ten years 
later. College selectivity matters for men and women, but gender 
differences were more pronounced. Strikingly, a woman who earned a 
degree from a highly selective institution had lower earnings than men 
with degrees from highly selective institutions or moderately selective 
schools, and about the same pay as a man who attended a minimally 
selective college. Both women and men invest a great deal of financial 
resources in their college educations, and often graduate with 
substantial student loans. AAUW's research suggests that a woman's 
investment in attending a highly selective school--which is typically 
more expensive--does not pay off for her in the same way it does for 
her male counterparts.\11\ Further, because of the pay gap, women often 
have a harder time paying off their student loans.
---------------------------------------------------------------------------
    \11\ AAUW Educational Foundation. (2007). Behind the Pay Gap, by 
Catherine Hill and Judy Goldberg Dey. Washington, DC.
---------------------------------------------------------------------------
    Ten years out, the unexplained portion of the pay gap widens. 
AAUW's analysis showed that while choices mattered, they explained even 
less of the pay gap ten years after graduation. Controlling for a 
similar set of factors, we found that ten years after graduation, a 
twelve percent difference in the earnings of male and female college 
graduates is unexplained and attributable only to gender.
    The pay gap among full-time workers understates the lifetime 
difference in the earnings of women and men. The impact of personal 
choices such as parenting has profoundly different effects on men and 
women. Ten years after graduation, 23 percent of mothers in this sample 
were out of the work force, and 17 percent worked part-time. Among 
fathers, only 1 percent were out of the work force, and only 2 percent 
worked part-time. Stay-at-home dads in this study appear to be a rare 
breed. We know that most mothers return to the workforce, and hence it 
is reasonable to assume that the pay gap between men and women will 
widen as mothers return to full-time employment, driving down average 
earnings for women.
    Interestingly, motherhood is not the driving factor behind the wage 
gap among women working full-time ten years after graduation.\12\ That 
is, mothers who were in the workforce full-time did not earn less than 
other women also working full-time, controlling for other factors such 
as occupation and major.
---------------------------------------------------------------------------
    \12\ This is in keeping with research that shows that a 
``motherhood penalty'' applies to most women but less to women who 
maintain continuous work force attachment (Lundberg & Rose, 2000).
---------------------------------------------------------------------------
                the search for solutions to the pay gap
    First, it must be publicly recognized as a serious problem. Too 
often, both women and men dismiss the pay gap as simply a matter of 
differing personal choices. While choices about college major and jobs 
can make a difference, individuals cannot simply avoid the pay gap by 
making different choices. Even women who make the same occupational 
choices as men will not end up with the same earnings. If ``too many'' 
women make the same occupational choice, resulting in job segregation, 
earnings can be expected to decline.
    Women's progress throughout the past 30 years attests to the 
possibility of change. Before the Equal Pay Act of 1963, Title IX of 
the Education Amendments of 1972, Title VII of the Civil Rights Act of 
1964, and the Pregnancy Discrimination Act of 1978, employers could--
and did--refuse to hire women for occupations deemed ``unsuitable,'' 
fire women when they became pregnant, openly pay differently based on 
sex, or limit women's work schedules simply because they were female. 
Schools could--and did--set quotas for the number of women admitted or 
refuse women admission altogether. In the decades since these civil 
rights laws were enacted, women have made remarkable progress in fields 
such as law, medicine, and business. Thirty years ago the pay gap was 
attributed to the notion that women's education and skills just didn't 
``measure up.'' If that was ever the case, it certainly isn't true now.
    Unfortunately, women's educational gains--ironically likely 
motivated in part by women's desire for economic security \13\--have 
not translated into equal pay for women in the workforce. In fact, 
while a college degree does absolutely increase women's earnings, the 
pay gap remains larger for college graduates than the population as a 
whole.\14\
---------------------------------------------------------------------------
    \13\ DiPrete, Thomas A., & Claudia Buchmann. (2006, February). 
Gender-specific trends in the value of education and the emerging 
gender gap in college completion. Demography, 43(1), 1-24.
    \14\ Authors calculation from tables produced by the U.S. 
Department of Labor, Bureau of Labor Statistics. (2006). Median Usual 
Weekly Earnings, Employed Full Time, Wage and Salary Workers, 25 Years 
and Older. Retrieved April 16, 2007, from http://www.bls.gov/cps/.
---------------------------------------------------------------------------
    AAUW's research report provides strong evidence that sex 
discrimination still exists in the workplace and that this 
discrimination is not disappearing on its own. It's clear that existing 
laws have failed to end the inequities that women face in the 
workplace. AAUW believes we must take stronger steps to address this 
critical issue. While enactment of the Lilly Ledbetter Fair Pay Act was 
a critical first step, restoring the ability of working women to have 
their day in court to combat wage discrimination, additional 
legislation is needed to truly make real progress on pay equity.
                       the paycheck fairness act
    AAUW applauds Congress and the Obama Administration for moving 
quickly to pass the Ledbetter Fair Pay Act. However, the Ledbetter bill 
is only a down payment on the real change needed to close the pay gap. 
The next critical step is for the Senate to pass the Paycheck Fairness 
Act (S. 182/H.R. 12); the House already passed the measure in January 
2009 by an even stronger vote (256-163) than the Ledbetter bill (247-
171).
    Passing both bills is critical to the overall goal of achieving pay 
equity for all. The Lilly Ledbetter Fair Pay Act amended Title VII of 
the Civil Rights Act of 1964 and righted the wrongs done by the Supreme 
Court, regaining ground we'd lost. Ledbetter was a narrow fix that 
simply returned legal practices and EEOC policies to what they were the 
day before the Ledbetter decision was issued in 2007--nothing more, 
nothing less. The Paycheck Fairness Act is a much needed update of the 
45-year-old Equal Pay Act, closing longstanding loopholes and 
strengthening incentives to prevent pay discrimination. Together, these 
bills can help to create a climate where wage discrimination is not 
tolerated, and give the administration the enforcement tools it needs 
to make real progress on pay equity.
                background on the equal pay act of 1963
    This law requires that men and women be given equal pay for equal 
work in the same place of business or establishment. The jobs do not 
have to be identical, but they must be substantially equal. It is job 
content--not job titles--that determines whether jobs are substantially 
equal. Pay differentials are permitted only when they are based on 
seniority, merit, quantity or quality of production, or a factor other 
than sex. It is important to note that when correcting a pay 
differential, no employee's pay may be reduced. Instead, the pay of the 
lower paid employee(s) must be increased. While laudable in its goals, 
the Equal Pay Act of 1963 has never lived up to its promise to provide 
``equal pay for equal work.''
                what will the paycheck fairness act do?
    The Paycheck Fairness Act is a comprehensive bill that strengthens 
the Equal Pay Act by taking meaningful steps to create incentives for 
employers to follow the law, empower women to negotiate for equal pay, 
and strengthen federal outreach and enforcement efforts. The bill would 
also deter wage discrimination by strengthening penalties for equal pay 
violations, and by prohibiting retaliation against workers who inquire 
about employers' wage practices or disclose their own wages. The 
Paycheck Fairness Act would:

    <bullet>  Close a Loophole in Affirmative Defenses for Employers: 
The legislation clarifies acceptable reasons for differences in pay by 
requiring employers to demonstrate that wage gaps between men and women 
doing the same work have a business justification and are truly a 
result of factors other than sex.
    <bullet>  Fix the ``Establishment'' Requirement: The bill would 
clarify the establishment provision under the Equal Pay Act, which 
would allow for reasonable comparisons between employees within clearly 
defined geographical areas to determine fair wages. This provision is 
based on a similar plan successfully used in the state of Illinois.
    <bullet>  Prohibit Employer Retaliation: The legislation would 
deter wage discrimination by prohibiting retaliation against workers 
who inquire about employers' wage practices or disclose their own 
wages. (NOTE: Employees with access to colleagues' wage information in 
the course of their work, such as human resources employees, may still 
be prohibited from sharing that information.) This non-retaliation 
provision would have been particularly helpful to Lilly Ledbetter, 
because Goodyear prohibited employees from discussing or sharing their 
wages. This policy delayed her discovery of the discrimination against 
her by more than a decade.
    <bullet>  Improve Equal Pay Remedies: The bill would deter wage 
discrimination by strengthening penalties for equal pay violations by 
providing women with a fair option to proceed in an opt-out class 
action suit under the Equal Pay Act, and allowing women to receive 
punitive and compensatory damages for pay discrimination. The bill's 
measured approach levels the playing field by ensuring that women can 
obtain the same remedies as those subject to discrimination on the 
basis of race or national origin.
    <bullet>  Increase Training, Research and Education: The 
legislation would authorize additional training for Equal Employment 
Opportunity Commission staff to better identify and handle wage 
disputes. It would also aid in the efficient and effective enforcement 
of federal anti-pay discrimination laws by requiring the EEOC to 
develop regulations directing employers to collect wage data, reported 
by the race, sex, and national origin of employees. The bill would also 
require the U.S. Department of Labor to reinstate activities that 
promote equal pay, such as: directing educational programs, providing 
technical assistance to employers, recognizing businesses that address 
the wage gap, and conducting and promoting research about pay 
disparities between men and women.
    <bullet>  Establish Salary Negotiation Skills Training: The bill 
would create a competitive grant program to develop salary negotiation 
training for women and girls.
    <bullet>  Improve Collection of Pay Information: The bill would 
also reinstate the Equal Opportunity Survey, to enable targeting of the 
Labor Department's enforcement efforts by requiring all federal 
contractors to submit data on employment practices such as hiring, 
promotions, terminations and pay. This survey was developed over two 
decades and three presidential administrations, was first used in 2000, 
but was rescinded by the Department of Labor in 2006.

    The Paycheck Fairness Act maintains the protections currently 
provided to small businesses under the Equal Pay Act, and updates its 
remedies and protections using familiar principles and concepts from 
other civil rights laws. These new provisions are not onerous and are 
well-known to employers, the legal community, and the courts. As a 
result, the legislation will enhance women's civil rights protections 
while simultaneously protecting the job-creating capacity of small 
businesses. That's why--in addition to AAUW and almost 300 other 
organizations--groups such as Business and Professional Women/USA and 
the U.S. Women's Chamber of Commerce support the Paycheck Fairness Act.
                 despite progress, the pay gap remains
    Despite the progress that women have made, pay equity still remains 
out of reach and partly unexplained. Even government economists say 
that a portion of the pay gap remains a mystery even after adjusting 
for women's life choices. Skeptics like to claim that there is no real 
pay gap--that somehow it's all a product of our imaginations. Worse, 
these critics prefer to blame women for any pay disparities, saying 
that the pay gap is due to the ``choices'' that women make. But excuses 
are excuses, and facts are facts.
    Women are working harder than ever to balance the roles of work and 
family. They've developed and supported successful legislation that has 
opened doors and helped to keep them in the workforce while they raise 
their children. When women don't earn equal pay, they're not the only 
ones to suffer--their families do, too. In these days when two incomes 
are needed to make ends meet, and where female-headed households are so 
much more likely to be poor, it is disturbing how maternal profiling is 
used to undercut women's wages because of their caregiving roles. It is 
also ironic and short sighted in a nation that needs women's labor to 
be competitive in a global economy.
    One popular argument is that motherhood (and the choices it 
engenders)--rather than discrimination--is the real culprit behind the 
pay gap. If that's the case, then we have much larger problems than the 
pay gap to deal with. If that's true, then this country--including its 
policy makers--needs to take a long, hard look at why the marketplace 
punishes women for being mothers--or as AAUW's research has showed, for 
simply their potential to be mothers--while fatherhood carries no 
financial risk when it comes to wages and may in fact carry financial 
benefits.
    Here's the bottom line: There's a pay gap that most economists 
agree can't be explained away completely by women's choices--no matter 
how convenient, no matter how comfortable, no matter how much easier it 
would be for the critics if they could do so. And we ignore it at our 
peril.
    AAUW plans to continue to take an active role in challenging the 
persistent inequity in women's paychecks, by unmasking the real root 
causes of the issue, relying on facts over inflated rhetoric, and by 
urging the creation of more workplaces that are supportive of all 
employees with family responsibilities, regardless of gender. We also, 
quite strongly, urge the Senate to join the House and pass the Paycheck 
Fairness Act.
    Collectively, women have demonstrated that they have the skills and 
the intelligence to do any job. Women have also shown they can do these 
jobs while minding the home front and raising the next generation. No 
one is disputing that women have made significant gains in education 
and labor force participation. In fact, AAUW revels in them and our 
role in making them happen. But our work is not done, and pay equity 
remains a pernicious problem with both daily and long term 
consequences. It's past time for women's paychecks to catch up with our 
achievements.
                               __________
              Prepared Statement of Diana Furchtgott-Roth
    Ms. Chairwoman, members of the Committee, I am honored to be 
invited to testify before your Committee today on the subject of the 
pay gap between men and women. I have followed and written about this 
and related issues for many years. I am the coauthor of two books on 
women in the labor force, ``Women's Figures: An Illustrated Guide to 
the Economic Progress of Women in America,'' and ``The Feminist 
Dilemma: When Success Is Not Enough.''
    Currently I am a senior fellow at the Hudson Institute. From 
February 2003 until April 2005 I was chief economist at the U.S. 
Department of Labor. From 2001 until 2003 I served at the Council of 
Economic Advisers as chief of staff and special adviser. Previously, I 
was a resident fellow at the American Enterprise Institute. I have 
served as Deputy Executive Secretary of the Domestic Policy Council 
under President George H. W. Bush.
    One of the concerns of working women is the ``pay gap''--the 
alleged payment to women of 78 cents for every dollar earned by a man. 
However, men and women generally have equal pay for equal work now--if 
they have the same jobs, responsibilities, and skills. Members of 
Congress are paid identically regardless of gender, as are many other 
men and women with the same job. Two entry-level cashiers at a 
supermarket, one male and one female, are usually paid the same, as are 
male and female first-year associates at law firms. If they believe 
they are underpaid, they can sue for discrimination under current law.
    The 78 percent figure comes from comparing the 2007 full-time 
median annual earnings of women with men, the latest year available 
from the Census Bureau.\1\ The 2007 Department of Labor data show that 
women's full-time median weekly earnings are 80 percent of 
men's.\2,\\3\ Just comparing men and women who work 40 hours weekly, 
without accounting for differences in jobs, training, or time in the 
labor force, yields a ratio of 87.2 percent.\4\
---------------------------------------------------------------------------
    \1\ DeNavas-Walt, Carmen, Bernadette D Proctor, and Jessica C 
Smith, U.S. Census Bureau, ``Table A-2. Real Median Earnings of Full-
Time, Year-Round Workers by Sex and Female-to-Male Earnings Ratio: 1960 
to 2007'', Income, Poverty, and Health Insurance Coverage in the United 
States: 2007, Washington, DC: U.S. Government Printing Office, 2008, p. 
38.
    \2\ U.S. Department of Labor Bureau of Labor Statistics, Women in 
the Labor Force: A Databook, Washington, DC, December 2008, p. 1.
    \3\ BLS uncompiled 2008 data on weekly earnings yield an earnings 
ratio of 79.9 percent.
    \4\ Bureau of Labor Statistics, ``Median usual weekly earnings of 
wage and salary workers by hours usually worked and sex, 2007 annual 
averages--continued'', Highlights of Women's Earnings in 2007, 
Washington, DC, October 2008, p. 41. Statistic refers to workers who 
usually work exactly 40 hours a week.
---------------------------------------------------------------------------
    These wage ratios are computed from aggregate government data and 
do not take into account differences in education, job title and 
responsibility, regional labor markets, work experience, occupation, 
and time in the workforce. When economic studies include these major 
determinants of income, rather than simple averages of all men and 
women's salaries, the pay gap shrinks even more. A report by Jody Feder 
and Linda Levine of the Congressional Research Service entitled ``Pay 
Equity Legislation in the 110th Congress,'' \5\ declared that 
``Although these disparities between seemingly comparable men and women 
sometimes are taken as proof of sex-based wage inequities, the data 
have not been adjusted to reflect gender differences in all 
characteristics that can legitimately affect relative wages (e.g. 
college major or uninterrupted years of employment).''
---------------------------------------------------------------------------
    \5\ Jody Feder and Linda Levine, ``Pay Equity Legislation in the 
110th Congress,'' CRS Report for Congress RL31867, Washington, DC: 
Congressional Research Service, Updated January 5, 2007.
---------------------------------------------------------------------------
    Many academic studies of gender discrimination focus on the 
measurement of the wage gap. Dozens of studies have been published in 
academic journals over the past two decades. These studies attempt to 
measure the contributing effects of all the factors that could 
plausibly explain the wage gap through an econometric technique called 
regression analysis. The remaining portion of the wage gap that cannot 
be explained by measurable variables is frequently termed 
``discrimination.'' Generally, the more explanatory variables that are 
included in the econometric regression analysis, the more of the wage 
gap that can be explained, and the less is the residual portion 
attributable to ``discrimination.'' An analysis that omits relevant 
variables finds a greater unexplained residual.
    However, simple wage ratios do not take into account other 
determinants of income. They are computed using purely mathematical 
calculations of U.S. labor market data published by the Bureau of Labor 
Statistics of the U.S. Department of Labor. Comparisons of men's and 
women's wages need to be made carefully, because there are differences 
in hours worked by men and women.
    Let's take an example of how regression analysis allows us to 
distinguish different factors that affect earnings. A female nurse 
might earn less than a male orthopedic surgeon. But this would not be 
termed ``unfair'' or ``discrimination'' because the profession of 
surgeon requires more years of education, the surgeon might work 
different hours from the nurse, and the nurse might have fewer 
continuous years of work experience due to family considerations.
    The standard literature in analyzing wage gaps between men and 
women is centered on measuring these varying factors. Professors such 
as Francine Blau and Lawrence Kahn,\6\ Charles Brown and Mary 
Corcoran,\7\ David Macpherson and Barry Hirsch,\8\ and Jane Waldfogel 
\9\ all take these factors into account to a greater or lesser degree. 
There are no peer-reviewed academic studies that measure the wage gap 
between men and women without using regression analysis to account for 
the major factors affecting wages.
---------------------------------------------------------------------------
    \6\ Francine D. Blau and Lawrence M. Kahn, ``The US Gender Pay Gap 
in the 1990s: Slowing Convergence,'' National Bureau of Economic 
Research, Working Paper 10853, October 2004.
    \7\ Charles Brown and Mary Corcoran, ``Sex-Based Differences in 
School Content and the Male/Female Wage Gap,'' Journal of Labor 
Economics 15 (July 1997 Part 1): 431-65.
    \8\ David A. Macpherson and Barry T. Hirsh, ``Wages and Gender 
Composition: Why Do Women's Jobs Pay Less?'' Journal of Labor Economics 
13 (July 1995): 426-71.
    \9\ Jane Waldfogel, ``Working Mothers Then and Now: A Cross-Cohort 
Analysis of the Effects of Maternity Leave on Women's Pay,'' in Gender 
and Family Issues in the Workplace, edited by Francine D. Blau and 
Ronald G. Ehrenberg (New York: Russell Sage Foundation, 1997).
---------------------------------------------------------------------------
    To take one study as an example, Professor June O'Neill, in an 
article published in 2003 in the economics profession's flagship 
journal The American Economic Review,\10\ shows that the observed 
unadjusted wage ratio between women and men in 2000 is 78.2 percent. 
When data on demographics, education, scores on the Armed Forces 
Qualification Test, and work experience are added, the wage ratio rises 
to 91.4. The addition of variables measuring workplace and occupational 
characteristics, as well as child-related factors, causes the wage 
ratio to rise to 95.1 percent. When the percentage female in the 
occupation is added, the wage ratio becomes 97.5 percent, an 
insignificant difference.
---------------------------------------------------------------------------
    \10\ June O'Neill, ``The Gender Gap in Wages, Circa 2000,'' 
American Economic Review, Vol. 93, No.2, Papers and Proceedings of the 
One Hundred Fifteenth Annual Meeting of the American Economic 
Association, Washington, D.C., January 3-5, 2003 (May 2003), 309-314.
---------------------------------------------------------------------------
    In another study, Professors Marianne Bertrand of the University of 
Chicago and Kevin Hallock of Cornell University found almost no 
difference in the pay of male and female top corporate executives when 
accounting for size of firm, position in the company, age, seniority, 
and experience.\11\
---------------------------------------------------------------------------
    \11\ Marianne Bertrand and Kevin Hallock, ``The Gender Gap in Top 
Corporate Jobs,'' Industrial and Labor Relations Review, October 2001.
---------------------------------------------------------------------------
    Lower pay can reflect decisions--by men and women--about field of 
study, occupation, and time in the workforce. Those who don't finish 
high school earn less. College graduates who major in humanities rather 
than the sciences have lower incomes. More women than men choose 
humanities majors.
    Employers pay workers who have taken time out of the work force 
less than those with more experience on the job, and many women work 
less for family reasons. A choice of more time out of the workforce 
with less money rather than more time in the workforce with more income 
is not a social problem. A society that gives men and women these 
choices, as does ours, is something to applaud.
    Nevertheless, we need to do all we can to level the playing field 
so that women are not discouraged by our institutions from dropping out 
of the workforce. One change that has been proposed is to allow the top 
tax rate to rise. This would adversely affect married women because 
their incomes are frequently secondary. It would not only discourage 
marriage, but also discourage married women from working.
    Take a nurse, Amanda, with taxable income of $50,000, who wants to 
marry Henry, who owns an electrical supply store and has taxable income 
of $160,000. Amanda's taxable income as a nurse is $50,000. Unmarried, 
he is in the 28% bracket and she is in the 25% bracket. When they get 
married, they will be taxed at 33%--rising to 36% in 2011 if Congress 
allows taxes to rise in 2011.
    By raising taxes on upper-income Americans, Congress would worsen 
our tax system's marriage penalty on two-earner married couples, and 
Amanda and Henry would pay even more tax married than single.
    In President Obama's new budget for 2010, he outlined plans to 
allow the top two tax rates to rise from 33% to 36% and from 35% to 
39.6% in 2011. In addition, taxpayers in these brackets would not 
receive the full value of their itemized deductions, further 
exacerbating the fiscal disadvantages of marriage for some couples.
    Taxes would rise for singles with taxable income over $172,000 and 
married couples over $209,000. Even if Amanda and Henry were not 
immediately affected by higher rates, those rates might well affect 
Amanda when she earned more.
    Unless, of course, Amanda and Henry decide to have children, and 
Amanda left the workforce to care for them. Say that Amanda's taxable 
income rose to $60,000, so she and Henry had a combined income of 
$220,000, placing them in the new 36% bracket. But with Amanda at home 
looking after the children, their federal tax rate would be 28%.
    And federal taxes are not the whole story. State taxes would take 
another 9% of Henry and Amanda's income in states such as Oregon, 
Vermont and Iowa; Medicare would take another 1.45%; and Social 
Security taxes would add another 6.2% up to $107,000.
    Our tax system should not make it harder for women to work. The 
penalty falls most heavily on married women who have invested in 
education, hoping to shatter glass ceilings and compete with men for 
managerial jobs, and the higher taxes would exacerbate the penalty.
    When mothers take jobs, earnings are reduced by taxes paid at their 
husbands' higher rates, in addition to costs for childcare and 
transportation. This discourages married women not just from working, 
but also from striving for promotions, from pursuing upwardly-mobile 
careers. Mothers are more affected by the marriage penalty than other 
women because they are more likely to move out of the labor force to 
look after newborn children and toddlers, and then to return to work 
when their children are in school.
    It does not have to be this way. Congress could leave taxes as they 
are now, with a flatter structure of rates, so that couples do not face 
higher rates upon marriage.
    Labor Department data show that as average number of earners per 
household rise, so do income levels. One characteristic of the highest-
earning one-fifth of households is that they have an average of two 
earners per household. The middle fifth averages 1.4 earners per 
household, and the lowestearning fifth averages half an earner per 
household--more part-time and unemployed workers, or retirees.
    Therefore, when workers marry, more households move into the top 
fifth of the income distribution. When Congress tries to raise taxes on 
top earners then working women are disproportionately affected, even 
if, like Amanda, they do not earn much by themselves. For Congress to 
announce that taxes on those at the top end of the scale will rise is 
an explicit attack on married working women.
    Thank you for giving me the opportunity to appear before you today. 
I would be glad to answer any questions.
  

                                  <all>

</pre></body></html>
